<html>
<title> - PROLIFERATION OF CHILD PORNOGRAPHY ON THE INTERNET</title>
<body><pre>[Senate Hearing 105-214]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 105-214

 
           PROLIFERATION OF CHILD PORNOGRAPHY ON THE INTERNET

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations


                      U.S. GOVERNMENT PRINTING OFFICE

44-512 cc                   WASHINGTON : 1997
_______________________________________________________________________

            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC  20402
                     



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas

                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            DALE BUMPERS, Arkansas
KAY BAILEY HUTCHISON, Texas          FRANK R. LAUTENBERG, New Jersey
BEN NIGHTHORSE CAMPBELL, Colorado    BARBARA A. MIKULSKI, Maryland
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)

                           Subcommittee Staff
                              Jim Morhard
                             Kevin Linskey
                               Paddy Link
                               Dana Quam

                         Scott Gudes (Minority)
                              Emelie East


                            C O N T E N T S

                              ----------                              

                       NONDEPARTMENTAL WITNESSES

                                                                   Page

Statement of Ernest E. Allen, president and CEO, National Center 
  for Missing and Exploited Children.............................     1
Statement of Diane Doe, parent advocate..........................     1
Child Pornography and the Internet: What Every Parent, Teacher, 
  and Child Should Know..........................................     2
Prepared statement of Ernest E. Allen............................     9

                         DEPARTMENT OF JUSTICE
                    Federal Bureau of Investigation

Statement of Louis J. Freeh, Director............................    19
``Innocent Images''..............................................    22
FBI capabilities.................................................    23
Safe computing tips..............................................    25
Prepared statement of Louis J. Freeh.............................    25
Preventing victimization.........................................    26
Crimes against children initiative...............................    26
Sexual exploitation of children..................................    26
``Innocent Images''..............................................    27
Child abductions.................................................    28
Child abuse on Government and Indian reservations................    28
Parental/family custodial kidnaping..............................    29
Child Support Recovery Act.......................................    29
Violent crimes against youth.....................................    29
FBI response and capabilities....................................    29
Traveler case demonstration......................................    31
National Academy investigative computer courses..................    36
``Innocent Images'' training.....................................    36
Child abduction response plan....................................    37
Budget and legislative initiatives...............................    38
Victims assistance to law enforcement............................    38
Victim input.....................................................    39
Increasing safety awareness......................................    39
FBI tour.........................................................    39
1998 budget request..............................................    40
Additional committee questions...................................    43
Questions submitted by Senator Judd Gregg........................    43
Questions submitted by Senator Ernest F. Hollings................    44
Crimes against children initiative...............................    44
Industry cooperation with law enforcement........................    44
FBI role in child pornography on the Internet....................    44

                               (iii)


           PROLIFERATION OF CHILD PORNOGRAPHY ON THE INTERNET

                              ----------                              


                         TUESDAY, APRIL 8, 1997

                           U.S. Senate,    
    Subcommittee on Commerce, Justice, and State,
               the Judiciary, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg and Hollings.

                       NONDEPARTMENTAL WITNESSES

STATEMENTS OF:
        ERNEST E. ALLEN, PRESIDENT AND CEO, NATIONAL CENTER FOR MISSING 
            AND EXPLOITED CHILDREN
        DIANE DOE, PARENT ADVOCATE

    Senator Gregg. This hearing today involves the issue of 
child pornography and solicitation of children for sex over the 
Internet, and it is an attempt to address an issue which I 
think is growing and which we as a Nation must be more 
concerned about.
    Currently, there is a large community of individuals, 
unfortunately, who share pornographic pictures of children and 
actively seek sexual relations with minors using the Internet. 
When my children were young, I would tell them never to talk to 
strangers, and I think that is something many parents say to 
their children: ``Don't talk to strangers.'' Well, 
unfortunately, today the stranger is in your house and coming 
into your house through the Internet. The question is: How can 
we address that?
    I am interested in this hearing not only relative to the 
efforts that the law enforcement community is making to stop 
these illegal activities and illicit activities, but also for 
recommendations from the Federal Bureau of Investigation [FBI] 
and the National Center for Missing and Exploited Children 
regarding avenues of prevention and protection which all of us 
can tell our own children.
    At this time there are 6 million children in the United 
States who have ready access to the Internet, but by the year 
2002 it is expected that there will be approximately 20.2 
million children using the Internet. Unless precautionary 
measures are taken, the number of children who are exploited by 
sexual predators on the Internet will grow.
    Time and again, the U.S. Supreme Court has ruled that any 
pictures depicting a child in a sexually explicit way are 
illegal. Dissemination of it is also illegal. My interest in 
this subject is to facilitate the enforcement of laws that are 
already in place, to investigate the need for new laws, and to 
protect our children from individuals who are breaking those 
laws.
    Enforcement of the law is only one way that we can protect 
our children from sexual exploitation on the Internet. We, as a 
Nation, need to educate ourselves, our children, and our 
communities about ways to avoid contacts with sexual predators 
or child pornographers who are online. Parents need to become 
more involved in their children's use of the Internet. It is an 
important source of information and a stimulation that can be 
enjoyed by just about anyone. However, it can be a dangerous 
place where children are in contact with and can converse with 
strangers whose names and identities are hidden and protected. 
Parents and teachers need to be aware of both aspects of the 
information highway and to proceed with caution.
    I have found that there is little material available to 
parents and teachers to offer guidance on how to monitor 
children's use of the Internet. It is for this reason that I 
have drafted a booklet, which we have with us today which is 
entitled, ``Child Pornography and the Internet: What Every 
Parent, Teacher, and Child Should Know'' which I will place in 
the record. The purpose of this booklet is to simply assist 
parents in how to deal with children using the Internet. It is 
my hope that this outreach will help educate parents and 
children and will assist us in saving children from becoming 
victims of this vast anonymous activity on the Internet, which 
is so predatory.
    I welcome any recommendations with regard to prevention 
strategies from the FBI and the National Center for Exploited 
Children, or any other interested group, and I feel that it is 
important that our Nation work together to help stop these 
insidious crimes.
    [The information follows:]

  Child Pornography and the Internet: What Every Parent, Teacher, and 
                           Child Should Know
What is Child Pornography?
    Child pornography is the real or virtual depiction of a child 
posing in or performing a sexual act. Some of the pictures available on 
the Internet are of real children and some are digitally enhanced to 
look like children. All of these pictures are illegal.
    Child pornography is not protected by the First Amendment to the 
Constitution. Time and again, the U.S. Supreme Court has acknowledged 
our nation's right to protect our children from sexual exploitation. In 
addition, the Supreme Court has held that the Constitution does not 
protect the right to possess child pornography in one's own home.
How Does the Internet Play a Part in the Distribution of Child 
        Pornography?
    By the early 1990's, the cottage trade of child pornography was 
almost nonexistent, due to the U.S. Postal Service's commitment to 
catching child pornographers who distribute material through the U.S. 
mail. Today, the accessibility to the Internet has played a significant 
role in resurrecting the child pornography industry. Child pornography 
produced as far back as the 1960's is now being re-released. The 
Internet also has created a demand for new material. In addition, there 
is a substantial amount of written material containing graphic 
descriptions of child sexual abuse that is distributed over the 
Internet. Pedophiles have essentially created a virtual community where 
they can support each other and further validate the distribution of 
child pornography.
    Currently, the avenue for distribution of sexually exploitative 
material is through chat rooms visited primarily by pedophiles and 
child pornographers. In these chat rooms, the offenders speak freely 
about their desire to trade pictures. Anyone who taps into the chat 
room is immediately solicited for pictures of themselves or of other 
children, who are depicted in a pornographic manner. In addition, 
pedophiles will often share the names of children with whom they 
currently have a relationship. In this way, pedophiles will ``pass 
around'' their victims.
    Many times, children are solicited by child pornographers or 
pedophiles who tap into ``kids-only'' chat rooms and pose as children 
themselves. Some offenders will overtly solicit sexual favors from 
users they know to be children. Others seek to develop relationships 
with children in the chat room, encouraging them to meet and, then, 
sexually violating them.
Children Who Have Been Exploited by Cyberspace ``Buddies''
    Unfortunately, not every child is informed about the dangers of 
meeting up with strangers they meet over the Internet. Following are a 
few true stories that depict the very real dangers that exist on the 
Information Superhighway.
  --August 1996--A 35-year-old Long Island, New York, man was charged 
        with using America Online to lure a 14-year-old boy into an 
        illicit sexual encounter. The offender met the boy via a chat 
        room, arranged a liaison, and had sexual contact while the 
        boy's parents were out.
  --April 1996--A 66-year-old Tampa, Florida, man was charged with 
        attempting lewd conduct with a child and arrested on charges of 
        cruising the Internet for illicit purposes by soliciting a 
        teenager for oral sex. The man allegedly transmitted a 
        pornographic picture over the Internet and was arrested in 
        Tampa at what he thought was a rendezvous with a 15-year-old 
        girl.
  --March 1996--A 32-year-old former Mississippi disc jockey was 
        sentenced to six years in prison for using his personal 
        computer to arrange a sexual liaison with someone he thought 
        was a 13-year-old boy. The man pleaded guilty to transporting 
        child pornography by computer and traveling across state lines 
        for a sexual encounter with a child.
  --October 1995--A 29-year-old Keizer, Oregon, man was convicted of 
        third-degree rape for having sex with a 14-year-old girl he met 
        on the Internet. The girl encountered the man while using her 
        father's computer to exchange messages with other teenagers via 
        computer bulletin boards and the Internet. The man, who is 
        married and has two children, developed a relationship with the 
        girl and eventually moved from Internet communications to 
        lengthy telephone conversations with her.
  --August 1995--A 40-year-old Fort Lauderdale, Florida, man was 
        charged with sexual battery after he persuaded a 15-year-old-
        girl he met on-line to run away and meet him in Orlando, 
        Florida, where he raped her in a hotel room. He then took the 
        girl to his Fort Lauderdale home where she used his computer to 
        contact a friend who then helped her to flee.

What is Being Done to Catch These Offenders?
    In 1993, the kidnapping of a Maryland boy led police and the 
Federal Bureau of Investigation (FBI) to two suspects who allegedly had 
used their computers to contact and sexually abuse and solicit several 
juveniles along the Atlantic seaboard. Further investigations into 
these suspects' activities led the FBI to the discovery of wide usage 
of the Internet by child pornographers and pedophiles to distribute 
child pornography and to solicit minors for sexual encounters.
    This discovery prompted the FBI to launch an investigation, dubbed 
``Innocent Images.'' This initiative is an undercover operation 
coordinated by the Child Exploitation and Obscenity Section of the 
Justice Department's Criminal Division to identify and develop criminal 
cases against individuals who use America Online to recruit minors for 
sex or who use it to distribute child pornography.
    The undercover agents go on-line, posing as children, and tap into 
chat rooms that are designed for children only or are known to be 
places where child pornographers contact each other to swap pictures. 
The agents wait until they are solicited and when they are contacted, 
they launch an investigation against those individuals who are actively 
distributing child pornography or are actively soliciting minors for 
sex.
    At this time, Innocent Images has produced over 80 convictions. 
Unfortunately, there are potentially thousands of individuals who go 
on-line every day with the express purpose of soliciting child 
pornography or sex with minors.
    The FBI will be increasing its efforts to combat Internet child 
pornography as part of its new Office for Crimes Against Children. This 
office will work to prevent a variety of crimes against our nation's 
children; one of its primary focuses will be to prevent child 
pornography over the Internet.
What Can Parents, Teachers, and Children Do to Avoid the Dangers of 
        Cyberspace?
            Kids:
    Be aware that there are people on-line who are looking to harm you. 
Notify your parents or teacher and the police if you receive any kind 
of solicitation that is sexual or threatening in nature or that simply 
makes you feel uncomfortable. Do not respond to this kind of message.
    Never give out your name, address, phone number, the name of your 
school, or other personal information to anyone on-line without your 
parent's permission.
    Never agree to meet anyone who has contacted you on-line without 
your parent's permission. Thousands of children are abducted each year 
by strangers whom the children mistakenly trusted.
    You have a responsibility to yourself and your community to report 
any on-line contact that may be harmful to you or another child.
            Parents:
    You should talk to your children about the information contained in 
this pamphlet. Both parents and kids should be educated about the types 
of predators to avoid. Be sure that your children are aware that not 
all ``friends'' whom they meet on the Internet will be well-meaning.
    Consider using a pseudonym for your child on the Internet. Contact 
your service provider about how to unlist your child's name from its E-
mail list.
    Should your child request to meet in person a friend whom he or she 
has met on-line, make sure that the meeting is in a public place and 
you accompany your child to the meeting.
    Household computers should be kept in a common area, such as a 
family room or the kitchen. It is easier to be involved in your child's 
exploration of the Internet and see what kinds of people he or she is 
meeting when the computer is not in the privacy of a child's bedroom.
    Parents should learn more about computers and how to access the 
chat rooms and Websites that your children visit often. Most parents 
will never know as much about computers as their kids do; however, 
anyone can learn the basics. If you need help logging on, or finding 
what you're looking for, ask your kids to help you. This is a good way 
to let them know that you care about their interests and what they do 
when they go on-line.
    Encourage your children to tell you about anything that they 
receive on-line that makes them feel uncomfortable. Contact the local 
authorities or your regional FBI office if you find that your child has 
received inappropriate sexual or threatening material via E-mail or on-
line chat rooms. Do not allow your child to respond to this type of 
contact.
    Remember that, even in cyberspace, the most vulnerable children are 
those with low self-esteem. Encourage your children to find friends and 
interests outside of the Internet.
    If your child spends an inordinate amount of time on the Internet, 
or is on-line late into the night, this may be an indication that there 
is a problem.
            Teachers:
    Keep an eye on your students' explorations on the Internet. 
Supervision of usage can be the best prevention.
    Contact your local authorities or regional FBI office immediately 
if any of your students receives inappropriate sexual or threatening 
material via the Internet. Do not allow your students to respond to 
this type of contact.
            Parents and teachers:
    There is a variety of software available for parents to help filter 
out chat rooms and Websites that are inappropriate for your children. 
You may want to contact your on-line service company to inquire about 
the type of protections that it offers. It is important to be aware, 
however, that these filters do not offer 100 percent protection against 
the invasion of predatory individuals who may seek out your child. For 
instance, none of the filters can provide protection against explicit 
material transmitted by E-mail. All of the above suggestions are still 
viable protections that can be used in addition to an on-line filter.
Who to Contact and What to Do if Your Child is Solicited On-line
    First, contact the local police. In some towns, the local Police 
Department is equipped to investigate computer crimes such as on-line 
solicitation of a minor.
    Second, contact your regional FBI office. The listing for this 
office should be in your local phone book.
    Third, contact the National Center for Missing and Exploited 
Children (NCMEC) at 1-800-843-5678. The NCMEC can be a great source of 
information and support. In addition, the Center works closely with the 
Department of Justice's Office of Juvenile Justice and Delinquency 
Prevention to prevent the exploitation of children.
    Fourth, contact your on-line service provider and let them know 
that someone is using its service to transmit or solicit child 
pornography or solicit sexual material or services from your child.
    In addition, you may want to contact your school and your 
children's friends' families who also have access to the Internet. Let 
them know how your child was contacted and what to avoid. It is 
important that everyone in your community be educated as to how to 
avoid sexual predators on-line.
Where to Find More Information About Protecting Your Kids From 
        Exploitation
    The National Center for Missing and Exploited Children. Toll free 
phone number: 1-800-843-5678. E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="172023232426392620205774787a676264726561723974787a39">[email&#160;protected]</a>
    The National Crime Prevention Council Presents McGruff & Scruff and 
the CRIME DOGS. Toll free phone number: 1-800-WE PREVENT. Website: 
http://www.lois.net/crimedog/.
    Office of Juvenile Justice and Delinquency Prevention. Website: 
http://www.ncjrs.org/ojjhome.htm.
    The Child Abuse Yellow Pages. Website: http://idealist.com/cayp/.

    Senator Gregg. Now I would yield to the ranking member, 
Senator Hollings, for his comments.
    Senator Hollings. Mr. Chairman, let me thank you for 
setting the hearing. Last year we enacted the 
Telecommunications Act of 1996, and at the time we treated in 
depth this problem of pornography on the Internet. Under the 
leadership then of Senator Exon of Nebraska, we moved forward, 
and I thought we had a good, balanced, constitutional proviso 
to prevent this pornography. But it has already been set on 
appeal, and it is being taken up by the courts.
    In the meantime, of course, as you have mentioned, we have 
got the National Center for Missing and Exploited Children that 
has four divisions around the country, one in my State. They 
are doing an outstanding job, and I think we will find out 
again from the witnesses here that the problem is real. I do 
not think we are behind the curve, but I think maybe we are 
just in time. And I think we have got to really do everything 
we can to possibly support not only the center and other 
entities, but particularly our own Federal programs, the FBI, 
and others, who are already working in the field. I appreciate 
very much the hearing.
    Senator Gregg. Thank you, Senator Hollings.
    Our first two witnesses, if they would come up to the 
bench, are: Ernest Allen, who is the president and CEO of the 
National Center for Missing and Exploited Children; and Diane 
Doe. We would ask the press relative to Ms. Doe, relative to 
filming Ms. Doe, if you could show some restraint. She is going 
to tell a personal story, and she has been very generous and 
brave, I think, to come forward. But she has asked, to the 
extent possible, to have some anonymity for the sake of her 
family, and I think that is a reasonable request.
    Mr. Allen, if you could give us your thoughts on this 
issue?
    Mr. Allen. Thank you, Mr. Chairman and Senator Hollings. I 
have submitted a formal statement.
    Senator Gregg. Yes; and that will be made part of the 
record.
    Mr. Allen. Thank you very much. What I would like to do is 
briefly summarize. Let me begin by thanking you for your 
leadership and for the support of this committee. The national 
center, as you know, for the past 13 years has served as the 
congressionally designated national resource center and 
clearinghouse on the missing children issue. We are grateful 
for your support and for Senator Hollings' support over those 
years, and we believe that we have made important strides in 
protecting children.
    But a coequal part of our mission and our function is to 
address the whole area of child sexual exploitation. We have 
done that in a number of ways. For the past decade, we have 
operated the National Child Pornography Tipline in conjunction 
and cooperation with the U.S. Customs Service. Leads received 
through that tipline are provided to our Federal law 
enforcement partners, to the FBI, to the Customs Service, to 
the Postal Inspection Service, and to the Justice Department's 
Child Exploitation and Obscenity Section.
    We are also expanding our role in the area of helping 
exploited children, and just in the last Congress, the Treasury 
Appropriations Subcommittee of this committee provided 
financial support to create at the center an exploited child 
unit which would do in exploited child cases what we do 
currently on missing child cases, working with State and local 
law enforcement, and we are grateful for your support in that 
area as well.
    So what we are attempting to do is to focus on two primary 
areas of victimization in terms of the Internet and the online 
world. The first is the enticement of children online, and we 
are aware of 50 or 60 such cases. There are not thousands. We 
think there are more than we know about, but the Internet, 
technology, cyberspace, can be a tool used by pedophiles, just 
as other sorts of tools are used, to win the confidence of the 
child, to gain access to the child, and then to victimize the 
child.
    Mr. Chairman, as you point out, there is a second area of 
focus is the whole issue of child pornography on the Internet 
and online. Since the Ferber decision of the Supreme Court in 
the 1980's indicating that child pornography is not protected 
speech, we think that some very significant things have 
happened. Through the leadership and the work of Federal law 
enforcement, particularly the Customs Service and the Postal 
Inspection Service, child pornography is largely gone from the 
shelves of adult bookstores. And through the crackdown of the 
Postal Inspection Service, child pornography through the mails 
is far less a problem than it was earlier.
    The problem, however, today is that it has become more 
covert, more insidious, and better networked as pedophiles and 
those who prey upon children have sought the relative anonymity 
of the Internet, of the online services in cyberspace, to trade 
images and information to gain access to children and then to 
victimize children.
    So what we have tried to do as an organization is attack 
the problem in three ways. The first is through basic 
prevention education. As you were doing, Mr. Chairman, with 
your publication, we have tried to do the same thing as well, 
to reach out to families. Families and children do not truly 
appreciate that in this powerful and important medium there are 
some risks. A lot of parents do not know what their children 
are doing online, and they have a false sense of security: My 
child is at home; he is in his room; he is doing something 
positive and productive that is going to help him in the 
future. And for a lot of kids, there is a world of unreality. 
It is like a glorified computer game.
    What we have tried to do--and we have disseminated almost 2 
million of these--is we have produced a publication called 
``Child Safety on the Information Highway.'' I know the members 
of the committee have seen this. Our attempt is to provide 
positive information to parents and kids about how to use this 
important tool responsibly and safely.
    Second, in partnership with Federal law enforcement, we 
have created mouse pads. The goal of the Federal Government is 
to wire every school in America for the Internet by the year 
2000. Our goal is to make sure that every PC and modem located 
in a school that is wired to the Internet has one of these 
mouse pads with, again, safety information, positive 
information about the use of the Internet. As you will note, on 
the mouse pads, there is the logo of the national center, in 
addition to the FBI, Customs, and the Postal Inspection 
Service. So those are the kinds of outreach things we are 
trying to do.
    A second part of our strategy has been to support and 
encourage the development and use of technology tools--access 
controls to give parents the ability to limit where their kids 
can get and the vulnerability to their kids online. And I think 
important progress is being made.
    But today I would like to focus on the third part of our 
strategy, and I think I can tell you that we are making great 
progress as a Nation, but there is a lot more to do. And that 
is just basic enforcement. The reality is child pornography is 
not protected speech, and regarding the whole debate over 
privacy rights, the reality is those who are misuing the 
Internet--those who are misusing cyberspace for illegal 
purposes--need to be identified, need to be prosecuted. We need 
to pierce that veil of anonymity.
    I want to commend Director Freeh and the leadership of 
Federal law enforcement because I think we have made important 
progress. The innocent images task force has brought to the 
Nation's attention the fact that there is such a problem. 
Important prosecutions are being made. People are being 
identified.
    The Customs Service has established a new child pornography 
unit, an expanded effort for Customs that is focusing on this 
problem. They are making important progress.
    One of the great areas of need, however, in our judgment, 
in addition to expanding that Federal presence and the Federal 
resources, is to build expertise and specialized units at the 
State and local level. The reality is, while this is a global 
medium, the victims are local. And victim families and victim 
children are victimized by this medium just as they have been 
victimized in the past by pedophiles in other ways.
    Unfortunately, there are not a lot of specialized units out 
there in local law enforcement. There are some significant 
exceptions--the San Jose high-tech crimes unit. There is a very 
important effort here in the Washington, DC, metropolitan area. 
But there are a lot of police departments that still do not 
even have personal computers and modems.
    One of the things that the center is trying to do as part 
of our public-private partnership is to encourage corporations 
to donate computers, as they upgrade their technology, to the 
center so that we can place it in local police departments 
around the country. We have done that with almost 400 computers 
already, and we have just begun.
    So, Mr. Chairman, you asked for recommendations, and I 
would like to make sort of summary recommendations in four 
basic areas.
    One, for all the progress that has been made, it is our 
judgment that Federal law enforcement needs more help. Federal 
law enforcement needs more resources, greater attention to this 
problem. There is an important role for Federal leadership in 
this arena because of the nature of the medium, because it is a 
national and multinational medium. So we would like to see more 
resources directed to personnel and technology, to the FBI, to 
the Customs Service, to the Postal Inspection Service.
    Second, we would encourage more resources at the State and 
local level, resources including training, resources to build 
specialized expertise, specialty units, so that we can expand 
on this whole area of multigovernmental, multidisciplinary 
response to the problem.
    We have encouraged the creation of multidisciplinary teams 
involving law enforcement, prosecution, and social services. We 
think that is something that needs to be emulated. And, Senator 
Hollings, our center in South Carolina has really taken the 
lead in making South Carolina the first State in the Nation to 
build a multidisciplinary team statewide, attacking the problem 
of missing and exploited children.
    Third, we think there needs to be greater attention to the 
victims. You are going to hear from Diane, and there are 
thousands of stories like Diane's out there across America. In 
these cases, somebody has to interview the victims. Somebody 
has got to talk to these children because there is a common 
denominator in these cases, and that is, these guys do not just 
do it once. They are not monogamous. They tend to victimize 
lots of kids, and what we have discovered is that if you 
interview children properly, if you talk to the kids about what 
happened to them, you discover there are other victims and 
there are many more cases. So the key role for local 
authorities, local law enforcement, local officials is there.
    Then, finally, we think we need to do more, as you are 
doing, in the area of aggressive public education. Our 
consistent message is that the Internet is an important 
resource, a positive resource. We encourage parents and 
children to explore and use it, but we need to also send the 
message that there are risks, and we need to send the message 
to those who would prey upon children online that there is no 
sanctuary in cyberspace, that illegal activity on the Internet 
or at the shopping mall or at the school or anywhere else is 
just as illegal and law enforcement is going to come after them 
and get them.

                           PREPARED STATEMENT

    That is, I think, the sense of my recommendations, and 
those are my comments.
    [The statement follows:]

                 Prepared Statement of Ernest E. Allen

    Mr. Chairman and members of this Committee, as President of 
the National Center for Missing and Exploited Children, I want 
to thank you for the opportunity to present testimony regarding 
child sexual exploitation on the Internet. I also want to thank 
you for your commitment to child protection and your visionary 
leadership on this vital and growing issue.
    Let me begin by first briefly describing the National 
Center for Missing and Exploited Children (NCMEC). Established 
in 1984, NCMEC is a private, nonprofit organization working 
with the U.S. Department of Justice to help find missing 
children and prevent child victimization. Serving as the 
national resource center on missing and exploited children 
required under the Missing Children's Assistance Act passed by 
the U.S. Congress, NCMEC provides assistance to parents, law 
enforcement, public and private agencies, legislators, and 
other professionals handling cases of missing children and 
child sexual exploitation. Since June 1987, NCMEC has also 
worked in cooperation with the U.S. Customs Service to operate 
the National Child Pornography Tipline, and in 1994 NCMEC 
partnered with the Interactive Services Association to create 
and publish the brochure, ``Child Safety on the Information 
Highway.'' We have distributed over one million copies of this 
publication in the past 2\1/2\ years, making it one of our most 
successful publications ever. The brochure includes general 
guidelines for parents, as well as specific tips for child 
online users--``My Rules for Online Safety.'' \1\
---------------------------------------------------------------------------
    \1\ For a copy of ``Child Safety on Information Highway'' or for 
further information on any of the issues discussed herein please 
contact the National Center for Missing and Exploited Children at 1-
800-THE-LOST or (703) 235-3900.
---------------------------------------------------------------------------
    Nineteen ninety-six was an important year for NCMEC and the 
issue of child sexual exploitation. Last year, Congress 
earmarked additional funding for the creation of a special 
division at NCMEC to provide information and technical 
assistance specifically in cases of sexual exploitation. The 
Exploited Child Unit (ECU) will provide the same kind of 
assistance to families and law enforcement in sexual 
exploitation cases that NCMEC provides in missing child cases. 
The ECU will develop technology and other resources to assist 
law enforcement in all areas of child sexual exploitation, 
including emerging issues such as online exploitation and 
international child sex tourism. It will serve as a primary 
point of contact on this issue and provide informational 
support for local, state, and federal investigators, forward 
incoming leads to appropriate law enforcement agencies, and 
provide needed support and information to victims and other 
concerned citizens. The ECU will also be working in close 
partnership with the U.S. Secret Service, Forensics Division, 
to provide case analysis and lead enhancement for state and 
local investigations.
    Gary Costello, a 25-year veteran of the Montgomery County, 
Maryland Police Department, will head the unit. During his 
career in law enforcement, Mr. Costello conducted more than 700 
child sexual exploitation and child pornography investigations, 
interviewing more than 500 child victims, and interrogating 
more than 200 offenders. Mr. Costello headed the Washington 
Metropolitan Council of Governments Child Exploitation 
Committee. Although the Unit will not officially open until 
this summer, he is already busy assembling his team and 
providing a wide range of services to law enforcement officers 
involved in the investigation of child sexual exploitation. The 
Unit is also working with our education and training division 
on a program NCMEC has developed to place donated computer 
hardware and software departments nationwide. Many police 
departments in America still do not have PC's and modems. This 
lack of technology hinders their understanding of the criminals 
they pursue as well as their efforts to apprehend them. Through 
this program, NCMEC's corporate and business sponsors donate 
computers and software programs to NCMEC, which we then in turn 
place in police departments with demonstrated needs. To date, 
we have placed 3 computers in law enforcement departments 
across the country. The computer placement program hopes to 
bridge the technology gap. The ECU is NCMEC's newest and 
brightest star, and we are excited and enthusiastic about 
improving our services in this vital area.
    You invited me to speak to you today about an issue that is 
as complex as it is important. Child sexual victimization is a 
persistent and pervasive problem, crossing all racial, 
geographic, and socio-economic barriers. According to a 1996 
U.S. Department of Justice study, 78 percent of violent state 
prison inmates convicted of sexual assault had abused a child, 
and three in 10 of these offenders committed their crimes 
against multiple victims. Children are the most vulnerable 
victims of sexual exploitation. A 1992 report by the National 
Victim Center revealed that 61 percent of rape victims are less 
than 18, and 32 percent of all rape victims are 12 to 17 years 
old. The National Clearinghouse on Child Abuse and Neglect 
estimates that in 1994, there were at least 406,000 reported 
cases of child sexual abuse. This number is enhanced when 
considered with the FBI assertion that rape and child 
molestation are the most underreported crimes, with less than 
10 percent of these offenses are ever disclosed. Even when 
cases are reported to law enforcement, the online aspect may 
not be mentioned in the interview or make it into the officer's 
official report. The officer may report it as a simple sexual 
assault or child pornography case. As a result, it is nearly 
impossible to estimate how many children are sexually 
victimized on or through cyberspace. Since 1994, NCMEC has been 
notified of 18 cases of child sexual exploitation that involved 
online access, and has learned of 18 more through the media or 
other non-profit organizations. Most of the cases reported to 
NCMEC involve children who have run away from home, ostensibly 
to meet ``friends'' they've ``met'' over the Internet. We 
suspect total numbers of online exploitation to be much higher.
    Child pornography is an insidious form of child 
exploitation--it is a frozen record of the sexual victimization 
of a child. This record follows the victim throughout life, 
often re-emerging when they are adults and respected members of 
society, as happened to a 30-year-old man in San Diego in 1995. 
Seventeen years after the molestation and years of therapy and 
family support, the victim was leading a normal and productive 
life--until pornographic pictures of him taken at thirteen 
resurfaced on the Internet and were distributed in his 
community. Devastated, the young man suffered the humiliation 
and exploitation of the abuse all over again.
    Law enforcement officials report that nearly all child 
molesters also collect child pornography. Child molesters use 
child pornography for a variety of reasons: (1) for sexual 
fantasies and gratification, (2) to share with fellow 
pedophiles to curry friendships and gain more information and 
pornography, (3) to reaffirm their belief that what they are 
doing is normal, acceptable, and shared by others, (4) to 
introduce potential child victims to sexual concepts and the 
methods of sexual conduct enjoyed by the molester, and (5) to 
``blackmail'' their victims into silence. Child pornography is 
a vital element of child sexual exploitation, and its ubiquity 
on the Internet should be a troubling indication of the 
potential and current sexual exploitation of America's 
children.
    Child sexual exploitation on the Internet takes various 
forms. Some child molesters use on-line chat rooms to openly 
solicit sexual favors from on-line users they know to be 
children. Others are more subtle, establishing ``friendships'' 
with the children that later lead to meetings and sexual 
victimization. In 1996, a school textbook salesman, identified 
online as ``Coach N.H.,'' befriended a person he believed to a 
14-year-old boy in an America Online chat room. He encouraged 
the ``boy'' to talk about his problems, and within minutes was 
engaging the ``boy'' in an explicit sexual discussion and 
sending pornographic pictures of adults, children, and young 
men having sex. After several more conversations, Coach N.H. 
asked if he could visit the ``boy'' and described in detail 
what he wanted to happen when he did. The ``boy'' agreed and 
the pedophile eagerly boarded a plane and flew across country 
for the meeting. To his surprise, he was greeted, not by an 
enthusiastic teenager, but by a team of local police. He was 
arrested and charged with five counts of attempted sexual 
exploitation of a child. Federal authorities later added other 
charges. The ``boy'' had actually been a local police 
detective. This case demonstrates the dedication and 
determination with which child molesters pursue their online 
victims.
    Still other pedophiles use the Net to communicate with 
other child molesters, discussing and exchanging child 
pornography and children they have sexually abused. Law 
enforcement, academic researchers, journalists, and on-line 
users have all documented the other types of child sexual 
exploitation occurring in cyberspace. This past January, a 21-
year-old student at a New York University was arrested by state 
authorities for transmitting three dozen sexually explicit 
photos of children, including pictures of children as young as 
18 months old engaged in sex acts. A 1995 Carnegie Mellon 
University study found that over a year and a half period, 83.5 
percent of digitized pictures stored on Usenet groups were 
pornographic in nature. The study also asserted that 
pedophilic, hebephelic, and paraphiliac images accounted for 
approximately 3 million downloaded images from an ``adult'' 
online bulletin board. Testifying before the Senate Judiciary 
Subcommittee on Security and Terrorism in 1995, Postal 
Inspector Paul Hartman testified that he had previously been 
convinced that pedophiles were members of an underground 
subculture with no formal lines of communication--until he 
discovered the prolific use of computers to exchange 
information and discuss their sexual desires. Intuitive common 
sense supports this sad reality: what more inviting place for a 
child molester than the anonymous, immediate, private, 
interactive network? Sadly, time in prison does not necessarily 
deter or prevent this behavior. Last month in Minnesota a 57-
year-old prisoner in a medium-security state prison was 
arrested by federal agents for receiving and distributing child 
pornography on the Internet. His private collection contained 
287 pictures of minors engaged in sexual conduct he had 
downloaded from the Internet through a prison computer. Again, 
a demonstration of the persistence of these offenders.
    Many commentators have been concerned with possible 
Constitutional implications of any regulation or policing of 
the Internet. This is an understandable concern; the First 
Amendment represents a fundamental principle of American 
society. The freedom to speak and exchange information without 
government censorship is a cherished value of our culture. It 
has long been a truth, however, that not all forms of speech 
receive the same degree of Constitutional protection. The U.S. 
Supreme Court has consistently held that child pornography does 
not receive protection under the First Amendment due to the 
unique nature of the harm it inflicts upon the victims it 
portrays.\2\ Possession, transmission and distribution of these 
materials are likewise unprotected and are criminal under both 
federal and state laws. Similarly, soliciting a minor for 
sexual purposes is not covered by the First Amendment's 
protections and is a crime in all jurisdictions. Many states 
also have enhanced penalties for solicitation of a minor as 
opposed to an adult. Of course, child molestation is itself 
also a crime in all jurisdictions. Therefore, pedophilia and 
the distribution of materials to facilitate such exploitation 
find no safe haven in the First Amendment.
---------------------------------------------------------------------------
    \2\ New York v. Ferber, 458 U.S. 747 (1982). Pornography depicting 
adults rather than children still retains Constitutional protection 
under this narrow ruling.
---------------------------------------------------------------------------
    During the Senate Judiciary Committee hearings, fourteen-
year-old Donelle Gruff testified to how she was stalked by a 
man she met through a bulletin board chat room. Four months 
later, that man was still running his bulletin board, and 
presumably still preying on young girls. The Gruffs were told 
that law enforcement could not act due to lack of evidence, 
despite copies of the pornographic materials and messages sent 
to Donelle during the stalking. Such frustration and 
misunderstanding is not uncommon. There are indeed current 
state and federal laws criminalizing the behavior of the man 
who stalked Donelle. Unfortunately, much of law enforcement, 
like much of America, is uncertain as to how or even if these 
laws apply to cyberspace. Law enforcement must be educated 
regarding these situations and their legal alternatives for 
prosecution, so as to encourage and dispose them to more active 
pursuit of these cases.
    Patrolling the cyber frontier is time-consuming work 
requiring substantial knowledge of computers and 
telecommunications technology. The FBI Innocent Images Task 
Force has demonstrated that a well-trained, effective federal 
cybercop unit can affect the environment of cyberspace. 
Investigators from the U.S. Customs Service and the U.S. Postal 
Service have also had considerable success in apprehending 
individuals distributing child pornography. Recent federal 
searches and prosecutions have shown the federal government's 
commitment to this issue and its ability to catch these 
offenders.
    State and local authorities have also been participating in 
policing cyberspace, and their role is an equally important 
one. Local law enforcement officers are often the first point 
of contact for a victimized child and family, and as members of 
the communities they police, they have a vested interest in 
protecting all of their neighborhoods, including the virtual 
ones. Unfortunately, state and local law enforcement in America 
presently are generally ill-equipped to tackle this task. 
Training, funding, and resources are needed to create an 
effective localized units of cybercops.
    We believe there is a real place for state and local 
involvement in online exploitation investigations. Current 
federal prosecutions are primarily content-driven, meaning that 
often the case is entirely made on what the offender said or 
transmitted online, as intercepted by a federal agent. As a 
result, oftentimes it is not necessary for the federal 
prosecuting authorities to interview victims. While this may be 
sound investigative policy and an efficient use of federal 
funds, it may not provide the victim or the local area with a 
sense of contribution or resolution. Also, this approach limits 
what information we are able to gather about these individuals 
and their victims; if the case is rejected for federal 
prosecution, it effectively disappears from the statistical 
database. State and local authorities could provide more 
comprehensive background and on-going investigations as to what 
the state of Internet exploitation is, particularly on local 
online bulletin boards. There are several police departments 
across the country that have already formed such units and are 
struggling with resource constraints, such as the San Jose, CA 
high-tech crimes unit and a similar unit in Montgomery County, 
MD. With federal assistance, the state and local authorities 
could play an enhanced and important role in the investigation, 
prosecution, and resolution of these cases. The threat of 
getting caught must be so real and immediate that predatory 
child molesters recognize and are intimidated by it. It should 
be scarier to them than the current Net is to our children.
    Much has been made over parental control technology and 
parental responsibility for child safety in cyberspace. Some 
industry leaders have touted parental control devices as the 
final answer to the dilemma, and makers of parental control 
devices have echoed this optimistic call. Parental control and 
parental responsibility are indeed vital to an effective 
response to cyberspace exploitation, but again, they alone 
cannot solve the problem. In an ideal world, parents would have 
complete knowledge at all times regarding the safety, well-
being, and disposition of their children. Certainly, no one can 
reasonably suggest that this could ever be a reality however, 
even for the best, most concerned and attentive parent, and not 
all parents are concerned and attentive.
    For parents that do play a dynamic, active role in the 
lives of their children, parental control devices enable them 
to greatly limit the potential harm to their family if used 
properly. They allow parents to block access to certain chat 
rooms, etc. based on the title of the area, much like channel 
blocking for cable television. Parents need to understand 
however, that the screening mechanisms utilized by these 
services may be evaded by determined pedophiles who simply 
misspell or encrypt their chat room or bulletin board names 
(i.e. ``childpoorn'' rather than ``childporn'', or 
``dadsndaughters''). Some parental control devices are able to 
block whole portions of the Net, which may assist parents in 
avoiding many of these groups. The most obvious problem 
associated with parental control devices is the knowledge 
required to implement them. The reality is that most parents 
have less computer and telecommunication knowledge than their 
school-age children. The generation gap is frequently 
accompanied by a technological gap. This technological gap is 
important and a far cry from the blinking clock on the VCR: 
some parents will simply not be able to or not choose to 
utilize these parental controls, leaving their children 
vulnerable to the shadows of cyberspace. For parents with the 
education, money, and inclination, parental control devices are 
undoubtedly a valuable and necessary tool in protecting our 
children, but their presence alone will not stop the on-line 
pedophiles.
    There are plenty of other proactive steps parents and 
educators can take to improve online safety for children. The 
first and most important is to talk to children and educate 
them about the potential dangers online. This can be done in an 
honest, nonthreatening manner, by simply talking with the child 
about common dangers in any city or neighborhood and explaining 
why the same precautions are necessary on the Internet or in 
bulletin boards. It is vital to ensure that children understand 
that while the majority of people online are perfectly nice and 
interesting individuals, many are not who they say they are. 
Remind children that because they can't see the person, it is 
easy for the person to misrepresent themselves. Warn children 
against giving out any identifying information, including their 
name, to anyone they meet online, without first getting 
permission from an adult, and encourage them to use an online 
pseudonym. Children should be told never to respond to a 
message that makes them uncomfortable, and to notify a trusted 
adult immediately. Likewise, they should never arrange a face-
to-face meeting with someone they've ``met'' online, without 
prior parental permission, and without being accompanied by an 
adult. Parents should consider locating the computer in a 
family area, rather than a child's room, and should monitor 
online time closely. Also, parents and educators need to 
realize that children may be accessing computers at friends' 
houses, public libraries, and ``Net Cafes,'' and should be 
prepared to discuss these issues in relation to those locations 
as well. Parents may want to designate a trusted adult outside 
the immediate family that the children can confide in about 
online issues and problems if they are uncomfortable or 
reluctant to discuss these issues with their parents. Finally, 
and most importantly, adults need to get involved in their 
children's online ``life''--talk to the children about what 
they're doing online, who they've met, what interesting things 
and sites they've discovered. Supervision and communication are 
the keys to online safety.
    While some young cyberspace explorers are talented and 
experienced computer hackers, many more are simply children 
wandering along the information highway and investigating rooms 
that pique their curiosity. Children, particularly teenagers, 
are bound to be curious about sex and the mysterious and 
forbidden discussions relating to it. However, curiosity 
shouldn't result in sexual exploitation. It is vitally 
important to recognize that child molesters have traditionally 
preyed on the most vulnerable victims they can find: children 
with low self-esteem, uneasy social skills, and a need for 
acceptance. This sad tradition persists in cyberspace. 
Unfortunately, these are also the children least likely to have 
parents who are actively involved in their lives. We cannot 
ignore the persistent vulnerability of these children. Children 
need to be educated directly about all aspects of the Internet, 
and encouraged to come forward when they encounter something 
that makes them uncomfortable or frightened. As with all child 
protection measures, education and communication are vital to 
helping our children help themselves. Parents need to talk to 
their children about the information superhighway and 
responsible uses of it. Schools also should take a responsible, 
proactive approach to this technology, especially since many 
children are receiving their first glimpse of the Internet at 
school. On-line companies need to address this audience, 
perhaps by exploring means by which scared and embarrassed 
children can report violations directly to the service. If we 
are to introduce our children to this new technology and 
encourage their use of it, we must also arm them with the 
necessary education to protect them from the dangerous 
underworld of this exciting frontier.
    The on-line world is perhaps one of the most promising and 
equalizing influences of the future. It allows us to exchange 
information in ways and at speeds only imagined a few decades 
ago. It has the potential to help us better understand each 
other and our world. NCMEC encourages parents and children to 
explore cyberspace. However, as with other aspects of life, 
there are some risks. This does not have to be a zero-sum 
situation: the protection of our children need not come at the 
expense of this expanding technology. We need to work together 
as society to create a dynamic, responsive, holistic approach 
to a problem that is as diffuse as the Internet itself. A 
proactive stance by industry, coupled with greater awareness 
and commitment on the part of the parents will go far to 
eliminating the child molesters' access to children. Better law 
enforcement training and funding for policing cyberspace will 
also threaten the secure playground pedophiles have found 
there. Cooperation among federal and state legislators to fill 
gaps in existing laws and prioritize emphasis on the 
prosecution of these cases will send a ``zero tolerance'' 
message to those tempted to victimize our children. Finally, 
intelligent and open discussion and education of our children 
regarding the benefits and dangers of life on the information 
superhighway will empower them to protect themselves from such 
exploitation. Any meaningful solution to the problem of the 
sexual exploitation of children in cyberspace will require a 
multi-faceted, long-term effort by all parties involved. 
America is the telecommunications world leader; surely together 
we can make the technology we create and explore safe for our 
children.

    Senator Gregg. Thank you, Mr. Allen. That is an excellent 
presentation. It gives us a lot to work with.
    Ms. Doe, I appreciate your coming today. I think this is 
very courageous of you. I recognize that something like this 
has to be tremendously trying and emotional, and certainly what 
you have been through has been terribly emotional. The fact 
that you have the courage to come here today and talk about it 
is very impressive, but also--more importantly--very helpful to 
a lot of people. So we thank you for coming. I do appreciate 
the fact the press is willing to show you the courtesy of some 
anonymity. I think that is important. So if you could give us 
your thoughts, we would appreciate those.
    Ms. Doe. Thank you. Mr. Chairman and members of the 
committee, I greatly appreciate this opportunity to come before 
you and tell my story. I hope that my being here will be 
helpful to you and that you will take meaningful action on this 
important issue as a result of this hearing.
    One morning just over 2 years ago, right after I had 
arrived at my job, a detective called and asked that I meet 
with him at the sheriff's office, that my 11-year-old son had 
been the victim of a crime. Once I arrived at the sheriff's 
office, I was escorted to a small room where I was advised that 
my son had been sexually molested many times over the past year 
by four teachers, that these molestations were videotaped, and 
that these tapes were copied and mailed all over the country.
    This group of men had molested three other boys in addition 
to my son. The ringleader lived in my neighborhood and had 
first befriended my son on the local basketball court. Next, he 
invited him over and paid him to wash his truck. After that, 
the man invited my son into his house and began victimizing 
him. He repeated this technique with two other boys in our 
neighborhood, giving them all money and telling them to be 
quiet. For over 1 year, my son said nothing because of his fear 
and shame.
    The teachers made contact with one another by way of a 
Prodigy chat room run by a pedophile in Arizona. They used this 
room to make the arrangements for their visits, giving detailed 
descriptions of the contents of these pornographic tapes, and 
arranged for the sale and distribution of the tapes. The ring 
was finally broken up when Customs agents found the man in 
Arizona and he had the tapes of my son on his premises.
    The man confessed to his own crimes, told the agents about 
the head of the ring in my State, and received probation in 
exchange for his information. While the mastermind in my State 
says he did not violate Federal law because he did not download 
in order to transmit these images, the pedophiles who reviewed 
and received the tapes did download the images and messages. 
All of the men pleaded guilty and received at least 20 years in 
prison from both State and Federal prosecutions.
    I can only speak for my own case, but I thought it was 
handled very well by all the authorities. I could tell it was 
more difficult for the State authorities since they had to rely 
on the evidence from the Federal case, and they sometimes 
complained that Customs was not turning over all of their 
information. Both my State officials and the Federal Customs 
agents seemed very committed to my case and did what I wanted 
most: put those men away for a very long time without my son 
having to testify and relive his abuse.
    Although the Customs agents were able to confiscate most of 
the tapes and disks, we believe there is still at least one 
missing tape. There is no way of knowing if someone in another 
part of the country, or even abroad, had been casually surfing 
the Internet, come across the images, copied them, and used 
them for their own pleasure or gain. We do know that because of 
the easy access into any of these chat rooms, my son's image 
could appear at any time, anywhere.
    Due to the pervasive reach of the Internet, the fear of 
these pictures and his identity being brought out around the 
world at any time, whether next week or 10 years from now, is 
overwhelming to my son. What happens if or when one of his 
classmates accidentally clicks into one of these forbidden 
areas and sees my son's pictures? Please do not even suggest 
that there are ways to block minors from entering these areas 
or that this responsibility is up to the parents to monitor 
what their children are doing on the computer. Parents do need 
to be more aware of what is out there and should have a means 
to control what is available to their children on the Internet. 
This is an almost impossible task. My family does not even own 
a computer, yet its easy accessibility greatly contributed to 
the further violations of my son.
    All these so-called securities, precautions, and blocks are 
not effective on their own. If they were, we might not be here 
today. There is not a child anywhere who could not get past the 
no-access codes. And there is not a pedophile out there that 
will not find new ways to entice innocent young victims.
    My son will soon be 15. He should be enjoying and exploring 
his youth and his young sexuality, not being concerned if the 
images of his rape are being seen and by whom.
    When all the investigations were going on and both he and I 
were being interrogated by all the various departments, I asked 
over and over to see the tapes to see what was done to my son. 
Although I was never able to do that, what I did learn and read 
in the newspapers, and knowing that I did not know it all but 
that the Internet world did, sickened me.
    Computers, the Internet, the online services are all 
marvelous technological wonders. So much is being accomplished 
in every field. So many bridges are being crossed and friends 
being made all over the world. How sad that something so good 
is being used in such a heinous way. How sad that such a 
wonderful learning tool is being used to coerce and deceive our 
innocent children into exposing themselves in such a malicious 
way.
    While I firmly believe in the freedom of speech, the 
freedom of press, and all those other wonderful freedoms we 
enjoy, I feel these freedoms are being stripped away by this 
rampant rape of our youth. Over and over, everyone says the 
children of today are the hope of the future. Our 
responsibility now is to protect them from the atrocities so 
many of our young are facing so they can go to be productive 
protectors of these freedoms for their children.
    I by no means wish to see the end of the Internet. I do 
feel better measures need to be implemented in order to protect 
the children from this type of physical, mental, and emotional 
destruction. I do not want what my son went through--and is 
still going through--to happen to another child. And I do not 
want another mother to feel the constant turn of the knife in 
her heart like I do every day.
    Thank you.
    Senator Gregg. Thank you, Ms. Doe. That was a very 
compelling statement and it reflects the seriousness of this 
situation.
    I would ask, Mr. Allen, if you have any estimate as to how 
many people are involved in this or if there is any way to 
estimate that?
    Mr. Allen. It is very difficult. Our assumption is that 
there are large numbers, but the FBI has told us that in most 
of these cases, the FBI estimate has been 1 to 10 percent ever 
being reported to the police. So our assumption to begin with 
is that these are cases of hidden victims, and that once we 
identify a case, then invariably there is a ripple effect in 
which we identify other cases associated to this person.
    Probably the most disturbing thing about the use of the 
Internet by pedophiles is they use it for multiple purposes. 
They use it to network with each other, with like-minded 
individuals. They use it to trade information, not just for 
purposes of arousal or sexual gratification, but to trade or 
access children. Now, this is not new. It is a methodology that 
has existed for a long time. What is new is they are using this 
tool in which they feel they have the lowest risk of exposure 
and the greatest potential of anonymity.
    Senator Gregg. Senator Hollings?
    Senator Hollings. Mr. Allen, you heard Ms. Doe--well, maybe 
I can ask Ms. Doe and then ask you. In one breath, Ms. Doe, you 
say that all these so-called securities, precautions are not 
effective on their own, and yet we wind up asking--you say that 
you do feel that better measures need to be implemented in 
order to protect the children. Such as? Do you have any idea of 
other measures?
    Ms. Doe. Senator Hollings, I am not a computer-literate 
person. Like I said, I have not got a computer in my home. 
There is no way, I do not think, to really block or stop these 
people from doing this type of thing unless there are a lot of 
people, other good people out there who are willing, when they 
do accidentally scan across it or whatever they do, report it 
immediately to the local authorities and to the national 
authorities. I do not know--I was totally unaware of any of 
this type of activity until this happened to my son. I never 
even heard of such a thing before.
    Senator Hollings. That would be public education.
    What about it, Mr. Allen?
    Mr. Allen. Senator, I think she makes a very good point, 
and that is that technology tools and access controls are not 
absolute. They are not guarantees. None of these things are.
    What we believe is the best response is a comprehensive 
response in which we do educate parents and kids, we try to 
encourage better parenting so that parents get involved and 
know what their kids are doing online. We do encourage access 
controls and technology tools, but we do not assume that it is 
a panacea or that it is enough.
    Our view in this area is that whatever the disposition by 
the court of the Communications Decency Act, this is an area 
where we have got law. Child pornography is not protected 
speech. It does not have to be defined or classified as 
indecent speech. It is illegal speech. And so I think the key 
is to do those things, do the public awareness, do the access 
controls, but also go aggressively after the people who are 
abusing the Internet, who are engaging in unlawful acts online.
    Senator Hollings. Well, as you know, we extended the 
telephone pornography laws to the Internet. It was heard by the 
Supreme Court only a couple of weeks ago, so we will have to 
see if they will continue to reaffirm that finding. But in the 
four areas where you say we need more public education and 
interviewing of the victims to lead to others, strengthening 
both the State and the Federal efforts--I guess the only way we 
are going to get to this is really strengthen the State effort, 
and that is going to have to come through the Federal 
Government.
    What about the FBI's effort? Can you make a comment about 
it?
    Mr. Allen. I think the FBI's effort has been extraordinary. 
The FBI has created the Innocent Images task force, which I 
think brought this problem to the attention of the Nation--
began to make cases. The FBI has a new crimes against children 
unit that is being formed.
    I would like to see more Federal resources addressed to 
this problem. I do not think--and it is not a criticism of the 
FBI or Customs or anybody--I think this is a problem where, 
frankly, we have only scratched the surface. I suspect that 
Federal law enforcement will tell you the cases we have made 
are in many ways the tip of the iceberg.
    I had one commanding officer say to me years ago--and I 
think it is absolutely true on this situation--that the only 
way not to find this problem is simply not to look for it. And 
in our judgment, America has begun to look, and the FBI and the 
Customs Service and the Postal Service and Federal law 
enforcement has led the way. But when the automobile was 
developed, there were law enforcement officials who said only 
the crooks will have the cars and we will be at a disadvantage. 
And I think what we are encountering here is exactly the same 
situation. Those who are most technology-adept in some cases 
are misusing the technology, and law enforcement once again has 
been behind the technology curve.
    Because of the leadership of the FBI and Customs and 
others, we are catching up. State and locals are way behind 
except in isolated situations. So my judgment is this is not 
something that Federal law enforcement can do on its own. State 
and locals need to play a part. But the optimum solution would 
be if there were a real partnership, a real comprehensive 
approach to the problem.
    Senator Hollings. You have both made excellent statements. 
I appreciate it.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator Hollings.
    I think Senator Hollings raises a good point, whether or 
not we should, maybe through the violent crime trust fund, set 
up some initiatives which would assist State and locals to set 
up task forces which would mirror the FBI effort and use the 
FBI experiences--an educational initiative. Do you think that 
might be helpful?
    Mr. Allen. Yes, sir, I agree. I think that would be very 
important.
    Senator Gregg. Well, we very much thank you folks for 
coming. We especially thank you, Ms. Doe. It is very generous 
of you to take the time to come here. And we thank you, Mr. 
Allen, because your input is substantive and thoughtful and 
very useful to us.
    Mr. Allen. Thank you, Mr. Chairman.
    Senator Gregg. Thank you.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF LOUIS J. FREEH, DIRECTOR

ACCOMPANIED BY:
        LINDA HOOPER, SUPERVISORY SPECIAL AGENT
        JORGE MARTINEZ, SUPERVISORY SPECIAL AGENT
        RICHARD POTOCEK, SPECIAL AGENT

    Senator Gregg. We will now hear from Director Freeh.
    Director, we appreciate your taking the time from what we 
know is a very hectic schedule to come here today to testify on 
the initiatives which the FBI has undertaken in the area of 
child pornography and arresting pedophiles who use the Internet 
for the purposes of soliciting children for sex. We have heard 
some testimony already, and everybody has made an opening 
statement, so I would like to just turn to you to get your 
thoughts on how we should proceed from here; how this committee 
can be helpful; what the Congress should do; and what people 
should do relative to dealing with the Internet in their homes 
and with their families?
    Mr. Freeh. Great. Thank you very much, Mr. Chairman. Good 
morning. Senator Hollings, good morning. It is a pleasure to be 
before the committee, particularly on a topic which is as 
critical and important to the country and to all of us right 
here.
    Let me compliment you, Mr. Chairman, for having this 
particular hearing. It is the first time in 3\1/2\ years that I 
have appeared at a hearing strictly focused on crimes against 
children, and specifically now crimes on the Internet involving 
pornography and children, and we think it is an outstanding 
effort.
    I would like to introduce, with your permission, 
Supervisory Special Agent Linda Hooper, who is on my right. 
Supervisor Hooper is in charge of the Innocent Images case in 
Baltimore and has been running that initiative very, very 
successfully, which I will talk about in my remarks. On my left 
is Supervisory Special Agent Jorge Martinez, who is the program 
manager for the national online child pornography initiative, 
Crimes Against Children Office. And I have asked them to assist 
me this morning, with your permission.
    Let me begin by just saying that the environment in which 
crimes against children, and particularly child pornography on 
the Internet, are committed is a new venue, a new environment 
for all of us in law enforcement. Generally speaking, the 
advent of computers and the Internet, where by the year 2000 
100 million people will transact together, present new 
challenges and new burdens for law enforcement--and, of course, 
new opportunities for criminals, particularly in this very 
dangerous area.
    All of us are parents or brothers or sisters, and we have a 
great concern, as will be demonstrated during parts of my 
testimony, about the impact that the Internet and the 
availability to pedophiles and other criminals of this new 
environment. This new medium establishes for them basically an 
entry into our homes. Unlike people who call on the telephone 
or knock on the door, pedophiles, people who would commit 
crimes against our children, can literally enter our homes over 
a computer, over the Internet, over an online service; many 
times without the knowledge or certainly without the 
opportunity for a parent or an adult to even screen or be aware 
of that activity. That is a very new and very dangerous 
environment for families and for children, and that is what we 
want to focus on a little bit today.
    Generally, the Crimes Against Children Program has been 
being pursued by the FBI since approximately 1994. The Attorney 
General and I, early in 1994, decided that we needed to do 
several things to deal with the growth of crimes against 
children. One thing we did was to establish in Quantico, VA, a 
new unit, the child abduction and serial killer unit. That 
unit, which is now fully staffed, is an operational unit which 
deploys and assists local and State departments in solving some 
of the worst types of crimes against children, including crimes 
involving abductions and rapes, and serial murders. That was 
established by the Department of Justice to deal with this 
particular problem.
    We have since, with the authorization of the Congress, 
established the Morgan P. Hardiman task force, which works 
directly with the National Center for Missing and Exploited 
Children. You heard from Mr. Allen, I believe, a few moments 
ago. The 15 Federal agents who are on that task force--
including three FBI agents, and two each from Secret Service, 
Customs, DEA, Marshals, Postal Inspection Service, and ATF--
work, again, operationally in that particular area where sexual 
predators, particularly in abduction cases, are involved in 
very high profile cases.
    Unfortunately, we do not have to go very far in the news to 
see cases where children, particularly in sexually related 
crimes, are victimized and abducted and where a very quick and 
comprehensive response, not just by the Federal Government, but 
by the State and local governments with our assistance, is 
critical.
    Just several weeks ago, there was a kidnapping of two young 
girls from Detroit--I am sure you remember reading about it--
two sisters, 6 and 9 years old. The three subjects who were 
later arrested because of the efforts of the FBI and the police 
in Kalamazoo, MI, as well as Daytona Beach, FL, were charged 
with being responsible for the sexual molestation of at least 
one of those little girls.
    Mr. Chairman, as you know, in your own State there is a 
continuing investigation in which several Federal warrants have 
been issued for the arrest of an individual linked to the 
disappearance of a 13-year-old girl in Nashua, NH, who remains 
missing. We know that the subject of the warrant in this 
particular case established a relationship with the victim on 
the Internet by communicating with each other. There are many, 
many cases which we are all tragically aware of the impact in 
this area.
    The beauty of computer technology is that it allows your 
child to reach out to the world and browse through 
encyclopedias and expand greatly and exponentially the 
opportunity for knowledge. The reverse side and the dark side 
of the technology is that criminals or pedophiles can reach 
into your home and transmit pornography and other materials to 
children, again, without many safeguards.
    There is commercial blocking software available, and there 
is some legislation in Congress which would require that to be 
provided. The technology experts--I am not one of them--advise 
me, however, that this is not an effective means to screen and 
protect children against these types of intrusions, principally 
because the software is often computer-specific. The ability of 
pedophiles and criminals to deal directly over the Internet by 
profiling users, including children searching for information 
for a school project, can quickly and easily defeat that 
software.
    Part of the solution to the problem is really not a law 
enforcement solution but parental education and safeguards 
which have to be put in place in the home where children are 
using these computers. I can speak, if you wish, very briefly 
about that later.
    We know that pedophiles and sexual predators use the 
Internet and online services to target and recruit victims--
children--as well as to facilitate the meetings with those 
children. The one case which I mentioned is what we call a 
traveler case, where somebody using the Internet reaches out to 
a child, makes contact, and then makes an appointment to meet 
and pursue that relationship, which generally results in sexual 
abuse or sexual molestation.
    The demonstration which we will provide to the committee at 
the close of my remarks, if you request it, is actually a 
documented case, a case which has been fully adjudicated, where 
the FBI used the screen name or the cyberspace alias name of a 
14-year-old girl. The undercover agent, working under very 
strict investigative guidelines, portrayed himself as a 14-
year-old girl. The subject in the case that you will see 
reached out for that girl and arranged a meeting. The subject 
was arrested at the meeting and prosecuted because he traveled 
from Maryland to Virginia.
    We have worked approximately 19 traveler cases, as we call 
them, as part of the Innocent Images cases, and we feel that 
these are just part of the overall problem.
    The online services provide chat rooms which are easily 
accessible venues for pedophiles and criminals to profile and 
contact juveniles--children using the Internet. The difficulty 
of this environment is that you never know who you are speaking 
to. You speak to a screen name who appears to be a 14-year-old 
high school peer and that person is actually a 40-year-old 
convicted pedophile. There is no way to determine who you are 
speaking to, which is one of the primary safety rules which 
parents need to be aware of as they evaluate what their 
children are doing there.
    We also know that there is available, and we have seen 
used, very low cost scanners and software which allow the 
capture of original still photographs, as well as video images, 
to transmit and originate pornographic material to be sent 
either over the Internet or over online services and exchanged 
in chat rooms or from bulletin boards. It's easily made 
available by anyone who has that access.

                            Innocent Images

    Let me speak a few moments about the Innocent Images 
investigation. This case was initiated in 1994 as a result of 
the disappearance of a 13-year-old boy named George Burdynski, 
who is still missing. The case was worked by the FBI and local 
detectives. They determined that two of the suspects in that 
case were using computers, and using online services to 
transmit, exchange, and originate child pornography. This 
became the basis for what is now known as the Innocent Images 
case.
    That particular case currently maintains a grand jury file, 
which is the best way to describe it, of 3,978 true names of 
people who have been identified, pursuant to grand jury 
subpoena, as engaging or attempting to engage in violations of 
criminal law relating to pornography or solicitation over the 
Internet. There are currently 455 of those cases which are 
actively being worked as current investigations.
    Over the course of the last 3 years, we have looked at 
many, many matters which fall within the area under the 
jurisdiction of the agents and support people who are working 
on the Innocent Images case.
    Why are not the other cases being worked? The answer to 
that question is that we have investigative criteria which have 
been established, not only by the FBI but by the Department of 
Justice, to determine when a case is taken from this grand jury 
file and evaluated for prosecution by sending it outside the 
district--in many cases, actually 95 percent of the cases--to a 
venue around the country where there would be criminal 
jurisdiction.
    The investigative and prosecutive criteria were established 
by the Department of Justice. The Department of Justice has a 
specialized child exploitation and obscenity unit which is 
staffed by 10 lawyers that evaluate these cases. They require 
that the subject of the investigation, before being worked as a 
criminal case, generally speaking--and I will give the 
exception to that in a moment--transmits text and images of 
pornographic material involving children, on at least three 
different occasions. So that the triggering criteria for the 
initiation of the full criminal investigation and its referral 
is that on three separate occasions there is an origination or 
transmission of a pornographic image plus text. And the 
requirement for the text is to show intent, which would be 
necessary to prove in court.
    That being said as the general investigative guideline, it 
is clear, and it has been our practice, that in any case--and 
each case is looked at on a one-by-one basis--if there is an 
egregious indication that the case needs to be looked at 
quickly without the criteria of the three separate events, we 
do that quickly. For instance, in any of the traveler cases, 
where someone is attempting to meet a juvenile through an 
online service for a date or what-not, that case is immediately 
worked. If the image being transmitted, or the text, is 
particularly egregious, if there are suggestions of rape or 
things like that, that case would be worked very quickly 
despite the investigative criteria which generally requires 
three separate instances.
    In the processing of Innocent Images cases, as of March 5, 
1997, there have been 200 search warrants issued, 40 consent 
searches, 33 informations, 81 indictments, 91 arrests, and 83 
felony convictions.
    Innocent Images has allowed the FBI and the Department of 
Justice to develop investigative guidelines for these crimes 
relating to cyberspace, which are the ones that I just detailed 
for you.
    Senator Grassley has written a letter with respect to 
inquiries about the number of matters in this data base, which 
ones are being worked, and the criteria. I have responded to 
him by one letter, and he has sent another letter which I will 
try to respond to today.
    We are very proud of the Innocent Images investigation. It 
has become a national clearing center within the FBI for those 
types of cases. The protocols established in that investigation 
have been shared with the other Federal agencies. In fact, the 
Florida Department of Law Enforcement uses that protocol to 
work its cases. The guidelines are established to avoid 
entrapment, to avoid investigation and prosecution of people 
who, short of criminal violation, perhaps have just, for 
whatever reasons, inquired into this particular area. And, 
again, the prosecution and the evaluation of the cases are done 
by the attorneys in the Department of Justice, and ultimately 
the assistant U.S. attorneys, because 95 percent of these cases 
go outside of the Baltimore-District of Columbia area.

                            FBI CAPABILITIES

    Let me talk briefly about some of the other FBI responses 
and capabilities. We know, unfortunately, that on an annual 
basis, studies show that the child abductions, nonfamily child 
abductions, number from 300 to 4,600 around the country, 
depending on what particular criteria you use to describe them, 
which is a large number, a tragically large number of children. 
And we feel, very justifiably based on our investigations, that 
the use of the Internet, particularly the use by sophisticated 
pedophiles and criminals, greatly expand the opportunities for 
these crimes. It is an area where we feel the FBI and the other 
enforcement agencies, particularly the Customs Service and the 
Postal Inspection Service--all three agencies having 
jurisdiction in child pornography matters--can be and have been 
very effective, particularly when they are combined together, 
as with the Morgan P. Hardiman task force.
    We have established an office for Crimes Against Children, 
which is located in FBI headquarters and whose mission is to 
coordinate as well as establish training, dissemination of 
information, and operational assistance to the 56 FBI field 
divisions who work these particular cases.
    We have also recently established an Office of Indian 
Country Investigations, many of which include sexual crimes 
against children. And by teletype, by training, by materials 
prepared at headquarters, we coordinate the national efforts 
and initiatives in that area, which are limited by resources, I 
might add.
    We have, in addition to those resources, as I mentioned, 
the child abduction and serial killer unit. The unit was 
established in 1994 and became operational in 1995. That is the 
unit that actually gets on the telephone with the local 
detective in a small department who has a child abduction or a 
serial killer case and needs the assistance of the people who 
are specialized in that unit. They coordinate forensics, the 
dispatching of evidence response teams, as well as profiling 
with respect to suspects so the local jurisdiction can target 
and evaluate the evidence that they have.
    Again, the Morgan P. Hardiman task force is an adjunct 
initiative to the child abduction and serial killer unit, both 
supervised by the same FBI supervisor and working with the 
national center.
    We also have established around the country five task 
forces or networking associations to deal with joint State and 
local efforts with respect to crimes against children. They are 
in Baltimore, Los Angeles, San Francisco, Dallas, and Las 
Vegas.
    The FBI laboratory is directly involved in many of the 
cases involving child abductions. In the Polly Klaas case in 
Petaluma, CA, Richard Allen Davis would not have been 
identified, albeit convicted later on, without the palm print 
which the FBI evidence response team took from a particular 
location and which was analyzed by the FBI laboratory, which is 
the best forensic laboratory in the world, in my view.
    Another operational support unit we use is what we call our 
computer analysis response teams, which this committee has 
generously funded over the last few years. These are the 
computer experts who can assist the agents who are working 
cases involving online transmissions and originations and give 
them the coordinates and assistance to obtain the evidence 
which is necessary.
    We maintain in the FBI laboratory the combined DNA 
information system, CODIS, which, again, this committee has 
generously funded over the years. That system is now active in 
62 different laboratories in 31 States, expanding to 22 more 
laboratories this year. That is a State and local operational 
ability to share and compare DNA sampling materials, which are 
critical as part of solving abduction and serial killer cases.
    We have in our Information Resources Division a rapid start 
team, which is an automated case support system. So if we have 
a major kidnapping in a particular venue, we can send our 
experts from this division who will immediately set up data 
bases and computer assistance to work complicated cases.
    We have in the Criminal Justice Information Services 
Division the National Crime Information Center, NCIC, which is 
very active and now maintains files for missing persons and 
unidentified deceased persons, which are very helpful in the 
solving of these cases.
    Since February 1997, we have provided an interim sexual 
offender tracking and identification system as part of the 
NCIC. This system will become a permanent part of the NCIC 2000 
feature in 1999. That system is the congressionally mandated 
index which is very important to solve these cases.
    Even our legal attaches overseas, particularly in England 
and Germany, another one in Austria, have worked very carefully 
in the Innocent Images initiative. These offices give us a 
capability overseas, because the Internet is not limited to the 
United States or any particular jurisdiction. You can get on 
the Internet and within 5 minutes be talking to somebody 
anywhere in the world. And we feel that we need that type of 
external presence to work these particular cases.
    In closing, there is no more precious asset than our 
children. There is certainly no greater danger to them in the 
context of this subject matter than the Internet and the very 
easy use which pedophiles and criminals can make of the 
Internet, as well as online services, to transmit pornography 
and also to literally meet and see our children in places where 
we would not want them to go.

                          SAFE COMPUTING TIPS

    Just very, very briefly, since I know, Mr. Chairman, that 
you are particularly interested in this, there are several sort 
of rules of the road that parents are reminded of--and I can 
list them very briefly here--with respect to protecting 
children who use computers at home against these very present 
and immediate dangers. And these are actually guidelines from 
the National Center for Missing and Exploited Children. A lot 
of them are common sense, but it does not hurt to review them.
    One is never hand out identifying information to people 
over the computer--home addresses, school names, telephone 
numbers, things like that. Get to know the services that your 
child uses. Many times we walk past our children using the 
computer, and we do not really know what they are doing or how 
they are doing it or why. It is not bad, particularly for older 
parents like myself, to understand what the new generation and 
the new technology requires. I know I have to rely on my 7-
year-old to get on to some of the computers.
    Never allow your child to arrange a face-to-face meeting 
with somebody that he or she meets over the computer. Again, 
common sense, but something which does not hurt to be repeated.
    Never respond to messages or bulletin board items that are 
suggestive, obscene, belligerent, threatening, or would make 
you feel uncomfortable.

                           PREPARED STATEMENT

    And, again, perhaps most importantly, people and things are 
not what they seem on the Internet. You may think you are 
researching a school project and talking to a retired history 
teacher. But you have no idea who you are talking to or where 
that person is or what his motives are. And it is a great 
technological revolution, computers, telecommunications, but 
like everything new, it poses new threats and new concerns, and 
everybody wants to protect our most precious asset.
    Again, I am very pleased to be here.
    [The statement follows:]

                  Prepared Statement of Louis J. Freeh

    Good morning, Chairman Gregg and members of the subcommittee. I am 
grateful for this opportunity to discuss the serious problems of child 
pornography, especially child pornography involving the Internet and 
on-line computer services. The FBI has developed a comprehensive 
``crimes against children'' initiative that focuses on the full range 
of federal crimes involving the victimization and physical harm of 
children.
    Our children are our nation's most valuable asset. They represent 
the bright future of our country and hold our hopes for a better 
nation. I can think of no greater satisfaction than that of being the 
parent of five young boys and watching them grow up in this great 
country.
    Our children are also some of the most vulnerable members of 
society. As a parent, I share the same anxiety and outrage that parents 
across the nation experience each time a child is sexually exploited, 
sexually abused, or murdered. Protecting our children against the fear 
of crime and from becoming victims of crime must be a national 
priority.
    Unfortunately, the same marvelous advances in computer and 
telecommunications technology that allow our children to reach out to 
new sources of knowledge and cultural experiences are also leaving them 
unwittingly vulnerable to exploitation and harm by pedophiles and other 
sexual predators in ways never before possible.
    The proliferation and ready availability of child pornography 
through the Internet and on-line services, and the use of these 
services by pedophiles and sexual predators to target and recruit 
children for exploitation, represent new challenges to the FBI and the 
law enforcement community. These challenges include: (1) developing 
innovative investigative and prosecutive strategies for dealing with 
federal crimes committed in cyberspace, and (2) building strong legal 
precedents that support these prosecutions in federal court.
    The FBI brings to cases involving child pornography and other 
crimes against children a full range of investigative resources and 
technical capabilities. FBI agents working these cases possess an 
extraordinary wealth of investigative expertise and experience. The FBI 
has a demonstrated ability to apply modern technology to investigate 
crimes facilitated by computers and related mediums. Finally, the FBI 
maintains strong relationships with state and local law enforcement 
that allows us to provide investigative, forensic, and technical 
assistance when requested.

                        PREVENTING VICTIMIZATION

    At the same time, the widespread and growing availability of this 
technology demands that all of us--elected and appointed public 
officials, law enforcement, parents, educators, and industry--be more 
vigilant and responsible by teaching our children how to avoid becoming 
victims of sexual predators. Parents should talk to their children 
about the potential dangers they may encounter through the Internet and 
on-line services. Several groups, including the National Center for 
Missing and Exploited Children, have issued guidelines for parents on 
safeguarding children who use computers linked to the information 
highway. Schools that offer computer classes and access to students 
should include appropriate discussion of this problem in their 
curriculum. Creating awareness of the problem is a first step toward 
reducing vulnerability.
    Additionally, arrangements with on-line service providers and 
commercial software are available to block access to sexually-oriented 
Internet and on-line bulletin boards, chat rooms, and sites. Such 
arrangements and software can help reduce--but will not totally 
eliminate--the vulnerability of children against sexual predators. 
Teenagers who are adept at developing their own programming codes have 
been able to circumvent blocking software. Also, since blocking 
technology is often specific to a particular computer, children can 
obtain access to the Internet and commercial services from an 
unprotected computer. Despite these limitations, blocking technology 
can be an effective tool in safeguarding young children.
    Strong and effective prevention strategies that develop and instill 
a sense of responsibility in accessing the Internet and on-line 
services, in partnership with effective law enforcement initiatives, 
are necessary if we are to be successful in reducing the vulnerability 
of our children to sexual predators and related crimes.

                   CRIMES AGAINST CHILDREN INITIATIVE

    As I indicated earlier, the FBI is attacking the proliferation of 
child pornography on the Internet and on-line services through a 
comprehensive ``crimes against children'' initiative. This initiative 
encompasses several major crime problems, including: the sexual 
exploitation of children; child abductions; child abuse on government 
and Indian reservations; parental/family custodial kidnapings; Child 
Support Recovery Act; and violent crimes against youth.

                    SEXUAL EXPLOITATION OF CHILDREN

    Sexual exploitation of children involves sexual activity in which 
the perpetrator receives sexual gratification and may benefit 
financially, such as through the manufacture and distribution of child 
pornography. Exploitation may include contacts for sexual purposes, 
prostitution, pornography, or other sexually exploitative activities. 
Increasingly, pedophiles and sexual predators are using the Internet 
and on-line services to target and recruit victims and to facilitate 
the distribution of child pornography.
    Pedophiles often seek out young children by either participating in 
or monitoring activities in chat rooms that are provided by commercial 
on-line services for teenagers and pre-teens to converse with each 
other. These chat rooms also provide pedophiles an anonymous means of 
establishing relationships with children. Using a chat room, a child 
can converse for hours with unknown individuals, often without the 
knowledge or approval of their parents. There is no easy way for the 
child to know if the person he or she is talking with is, in fact, 
another 14-year old, or is a 40-year old sexual predator masquerading 
as a peer. In other instances, a pedophile may use e-mail capabilities 
to send child pornography to persons who enter a chat room, even though 
the recipient does not request or want such mail.
    Pedophiles and sexual predators also target children by posing as 
other children seeking pen pals or by posting notices on bulletin 
boards. Relationships are developed for the purpose of making contact 
for conducting illicit sexual acts.
    The FBI has investigated more than 10 cases involving pedophiles 
traveling interstate to meet juveniles. In one case investigated by the 
FBI in Maryland and Florida, in conjunction with the Clearwater, 
Florida, Police Department, a subject was arrested in November 1995, 
after traveling from his home in Minneapolis, Minnesota, to Tampa, 
Florida, for purposes of having sex with what he thought was a 13-year 
old juvenile whom he had met through an on-line bulletin board system. 
In reality, the ``victim'' in this case was an undercover FBI agent. 
This subject, who was married and the parent of five children, was 
convicted in federal court.
    Finally, on-line chat rooms, Internet news groups--electronic 
forums that cater to special interests and topics--and e-mail are used 
on a daily basis by pedophiles for trading and distributing child 
pornography. These sites are often filled to capacity by users 
throughout the day. The availability of low cost scanners and software 
that allows the capture of original still photographs and video images 
from television and video recorders as computer graphic image files has 
made it possible for pedophiles to take original pornography and 
facilitate its distribution to other users of the Internet and on-line 
services.
    In July 1996, 16 members of a group that often frequented a chat 
room known as the ``Orchid Club'' were indicted in federal court on a 
variety of charges involving the production and distribution of child 
pornography, as well as conspiracy. A joint investigation by the FBI, 
the United States Customs Service, and the United States Postal 
Inspection Service determined that individuals used the chat room to 
arrange for and transmit child pornography. While in the chat room, 
they also discussed their involvement and desires in molesting 
children. What was especially significant in this case was that many of 
those conspirators later admitted active participation in child 
molestations within each of their own geographic locations.
    One subject of the ``Orchid Club'' case admitted to having sexual 
attractions to girls age four to ten years old. He also admitted to 
writing diaries of his sexual desires for children and to secretly 
videotaping children at playgrounds. During a search of this subject's 
residence, investigators found approximately 700 floppy diskettes, 100 
videotapes, diaries, writings, books, magazines, clippings, and related 
materials that indicated the subject's sexual interest in children.

                          ``INNOCENT IMAGES''

    In 1994, the FBI initiated an innovative and proactive 
investigation, designated as ``Innocent Images,'' to focus on the 
sexual exploitation of children through the Internet and on-line 
services. This investigation grew out of our experience in the May 1993 
disappearance of George Stanley Burdynski, Jr., a 13-year old, in 
Prince George's County, Maryland.
    In the course of the Burdynski investigation, FBI agents and Prince 
George's County Police detectives identified two suspects who had 
sexually exploited numerous juvenile males over a 25-year period. 
Investigation of these two suspects determined that both adults and 
juveniles were routinely using computers to transmit images of minors 
showing frontal nudity or sexually explicit conduct, as well as to lure 
other minors into engaging in illicit sexual activity with the 
suspects.
    Consultations with experts, both within the FBI and in the private 
sector, revealed that the use of computer telecommunications was 
rapidly becoming one of the most prevalent techniques by which 
pedophiles would share photographic images of minors, as well as 
identify and recruit children for sexually illicit relationships.
    To combat the use of computer telecommunications by pedophiles and 
sexual predators, the FBI and the Child Exploitation and Obscenity 
Section of the Department of Justice jointly developed an investigative 
and prosecutive strategy to identify subjects who originate, upload, or 
forward child pornography to other subscribers through the use of on-
line service providers. Our highest priority is on those individuals 
who indicate a willingness to travel for the purpose of engaging in 
sexual activity with a juvenile and those who are distributors of child 
pornography.
    As of March 5, 1997, the ``Innocent Images'' investigation has 
generated 200 search warrants, 40 consent searches, 81 indictments, 33 
informations, 91 arrests, and 83 felony convictions.
    The ``Innocent Images'' task force is staffed by agents of the 
FBI's Baltimore, Maryland, field office, other federal agencies, and 
investigators from surrounding state and local jurisdictions in 
Maryland, Virginia, and the District of Columbia. However, it is 
estimated that 95 percent of the subjects identified by the ``Innocent 
Images'' investigation reside in other states.
    The ``Innocent Images'' investigation has allowed the FBI and the 
Department of Justice to develop the investigative techniques needed to 
address child pornography and other crimes in cyberspace. These 
techniques fully take into account the Attorney General's guidelines 
for criminal investigations, including federal statutes that apply to 
electronic communications and the public's first amendment rights.
    The search warrants, seizures of computer equipment, and 
convictions resulting from the ``Innocent Images'' are putting 
pedophiles and criminals on notice that these crimes are being 
investigated and prosecuted. They also serve to deter others who may 
consider engaging in such illicit acts.
    This ongoing investigation also provides us with extensive 
background and intelligence on how pedophiles and sexual predators use 
and manipulate the Internet and on-line services; how they search for, 
target, and recruit victims; and how they try to evade notice by law 
enforcement. For example, some pedophiles now post their solicitations 
in legitimate news groups and bulletin boards knowing that law 
enforcement is aware of the more obvious sites frequented by 
pedophiles.
                            CHILD ABDUCTIONS

    Each year, as many as 300 children are abducted by strangers and 
either murdered, ransomed, taken with intent to keep, or detained at 
least overnight. A substantially larger number of children, as many as 
4,600 each year, are victims of relatively short-term abductions, a 
large majority of which are sexually motivated. These nonfamily 
abductions pose an enormous challenge for law enforcement.
    Each reported or suspected child abduction presents complex and 
unique circumstances with respect to jurisdictional issues, local 
liaison, local law enforcement expertise, and other considerations. 
Experience and research have underscored the crucial need for an 
immediate response to actual or suspected child abductions, and to 
mysterious disappearances that occur under circumstances suggesting a 
child may have been abducted.
    The FBI's response to a reported abduction or mysterious 
disappearance may be in the form of a full investigation based on a 
reasonable indication that a violation of the federal kidnaping statute 
has occurred, or it may take the form of a preliminary inquiry in order 
to determine if that statute has been violated. In either case, the FBI 
response is immediate and comprehensive.

           CHILD ABUSE ON GOVERNMENT AND INDIAN RESERVATIONS

    Another focus of the crimes against children initiative is child 
abuse on government and Indian reservations. Investigations of child 
sexual abuse on Indian reservations are among the most sensitive cases 
worked by the FBI. In fiscal year 1996, the FBI investigated 1,148 
cases involving the sexual and/or physical abuse of children, which is 
an increase of 74 percent when compared to the 660 cases investigated 
during fiscal year 1994.
    While Indian child and adolescent abuse and neglect are issues of 
widespread concern, no reliable statistics exist regarding their 
prevalence. In 1995, 21 Indian tribes in Arizona reported 115 cases of 
child molestation and sexual contact with a minor. For the period July 
1995 to July 1996, the Navajo Nation Division of Social Services 
reported 626 cases of child sexual abuse. In the 626 cases reported, 
174 were substantiated. In 22 of the 174 cases, substance abuse was 
involved.
    A strategy currently being used in FBI field offices to respond to 
these cases is the formation of multidisciplinary teams that include a 
special agent, tribal or Bureau of Indian Affairs investigator, social 
worker, clinical psychologist, a victim/witness coordinator, and an 
assistant United States attorney. Using a team effort to investigate 
child abuse allegations facilitates the successful prosecution of the 
child's abuser, while the child is protected from further 
victimization.
    The FBI also provides advanced training to Bureau of Indian Affairs 
investigators and tribal police officers in an effort to improve 
delivery of law enforcement services on Indian reservations; enhance 
the identification, preservation, and collection of evidence at crime 
scenes; and establish closer working relationships and partnerships 
between the agencies responsible for investigating crimes committed in 
Indian country.

                  PARENTAL/FAMILY CUSTODIAL KIDNAPING

    Parental/family custodial kidnaping refer to those situations where 
a family member takes a child or fails to return a child at the end of 
an agreed upon visit in violation of a custody agreement or decree. A 
1988 National Incidence Study on Missing, Abducted, Runaway, and Thrown 
Away Children estimated that over 354,000 children each year may be 
victims of parental/family abduction. Within that large group, it was 
estimated that over 163,000 children were transported interstate or 
internationally in an attempt to conceal or prevent contact with the 
child, or the abductor intended to keep the child or permanently change 
custodial privileges. It is this latter group of victims and violators 
in which the FBI typically becomes involved.
    Most of the victims of parent/family abductions are young; 33 
percent were between 2 and 5 years old, and 28 percent were between 6 
and 9 years old. Most were returned within a week; 62 percent were 
returned in 6 days or less, and 28 percent were returned in 24 hours or 
less. For over half of the children abducted by a family member, their 
caretaker knew their whereabouts more than half of the time they were 
away from home.
    Three key laws were enacted to address interstate and international 
parental child abductions: the Uniform Child Custody Jurisdiction Act, 
the Parental Kidnaping Prevention Act, and the Hague Convention on 
Civil Aspects of International Child Abduction.

                       CHILD SUPPORT RECOVERY ACT

    Criminal nonsupport has become a high-profile issue, with 
nonsupport being viewed as an increasing threat to the children, in 
particular, who are denied the benefits and opportunities of lawful 
financial support, and to society, as a whole, which is often required 
to bear the financial burden of providing basic support and services 
for children as a result of nonsupport.
    Some states have local remedies that include a felony prosecution 
for failing to pay child support, which in some cases would be 
preferable to the prosecution of a federal misdemeanor offense. 
However, many states either do not have a felony offense or view the 
federal Child Support Recovery Act as an additional tool to be used in 
the area of child support enforcement, and they rely upon federal 
assistance.
    The FBI actively participates with the United States attorneys, the 
Criminal Division of the Department of Justice, the Office of Inspector 
General for the Department of Health and Human Services, the United 
States Marshals' Service, and other federal, state, and local agencies 
to ensure compliance with the Child Support Recovery Act, to coordinate 
program efforts, and to obtain maximum benefits from resources 
available for these cases.

                      VIOLENT CRIMES AGAINST YOUTH

    Violent crimes against youth is another focus of the crimes against 
children initiative. Our nation's youth are increasingly finding 
themselves the victims of violent and serious crimes. The growth in 
violent crimes against children is most disturbing: between 1984 and 
1994, the number of juveniles murdered in the United States rose 82 
percent; in 1994, an average of 7 juveniles were murdered each day; 50 
percent of the juveniles murdered in 1994 were between the ages of 15 
and 17 years old; and 30 percent of the juveniles murdered in 1994 were 
younger than 6 years of age.
    A 1992 study found that abused or neglected children were 53 
percent more likely to be arrested as juveniles and were 38 percent 
more likely to be arrested for violent crime. This study also reported 
that 75 percent of chronic violent delinquents suffered serious child 
abuse by a family member and that 80 percent witnessed extreme acts of 
violence.
    The nation's changing demographics indicate that this problem may 
become even more challenging in the years ahead. By 2010, the juvenile 
population is expected to reach 74 million, an increase of seven 
percent from 1995. Youth violence and violence against youth are 
expected to increase appreciably. For the FBI and other law enforcement 
agencies, there will be the special challenges of addressing child-
victimization and encountering juvenile offenders more frequently.

                     FBI RESPONSE AND CAPABILITIES

    Let me describe some of the steps the FBI has taken to address each 
of these crime problems and some of the capabilities the FBI possesses 
to meet these challenges.
    As I indicated earlier, the FBI has begun a comprehensive ``crimes 
against children initiative.'' Under this initiative, the FBI has 
consolidated all investigative operations and administrative matters 
involving child victimization.
    At FBI headquarters, I have established two offices within our 
Criminal Investigative Division--the Office of Crimes Against Children 
and the Office of Indian Country Investigations--to plan, manage, and 
coordinate our nationwide efforts under the crimes against children 
initiative.
    Nationwide, there are 56 FBI field offices located in major cities 
across the United States, along with approximately 400 resident 
agencies in smaller cities and towns. This extensive field 
organization, along with over 11,300 authorized agents, provides the 
FBI with a unique federal law enforcement capability in these types of 
cases.
    The Baltimore, Los Angeles, San Francisco, Dallas, and Las Vegas 
field offices have successfully joined other law enforcement agencies 
in forming interagency task forces or networks to create 
multidisciplinary teams to address child abductions, sexual 
exploitation of children, and other crimes against children.
    Several components of the FBI's critical incident response group 
are often called upon to support cases involving sexual predators and 
pedophiles. The child abduction and serial killer unit was established 
to provide specialized investigative support services to this category 
of investigations. Additionally, in compliance with the Violent Crime 
Act of 1994, the FBI established the Morgan P. Hardiman task force on 
missing and exploited children as part of the unit.
    The Hardiman task force brings together agents and investigators 
from seven federal agencies--the FBI, the Drug Enforcement 
Administration, the United States Marshals' Service, the United States 
Secret Service, the United States Postal Inspection Service, the United 
States Customs Service, and the Bureau of Alcohol, Tobacco and 
Firearms--to serve as a resource for state and local law enforcement 
agencies requiring assistance in a missing child investigation.
    The child abduction and serial killer unit provides profiling 
services to federal, state, local, and, on occasion, foreign law 
enforcement that are often used to direct and guide investigative 
efforts. The unit also assists agents and investigators by developing 
strategies for interviewing persons suspected of crimes against 
children based upon information known about the crime and the suspect. 
The unit also coordinates the services of the violent criminal 
apprehension program (VICAP). Through VICAP, the FBI provides profiling 
assistance in serial crimes to other law enforcement agencies.
    Along with members of the Hardiman task force, the unit provides 
on-scene advice to state and local officers. Working together, the unit 
and task force facilitate the use of federal agency resources and 
capabilities, where appropriate, to assist state and local agencies. On 
a daily basis, the members of this unit and the Hardiman task force 
work closely with the National Center for Missing and Exploited 
Children.
    The recently established Computer Investigations and Infrastructure 
Threat Assessment Center (CITAC) will be a source of expert computer 
support to cases involving the Internet.
    The FBI laboratory provides a wide range of services that are used 
in these types of investigations. For example, in the Polly Klaas case, 
FBI evidence specialists used advanced forensic technologies to 
discover the palm print of Richard Allen Davis on Polly Klaas' bedroom 
wall. This evidence was crucial to the California state prosecution and 
conviction of Davis for the abduction and murder of Polly Klaas.
    Computer analysis response team (CART) agents and technicians, 
trained under the auspices of the FBI laboratory, assist in the search 
and examination of computer and telecommunications equipment used by 
pedophiles and sexual predators. Pedophiles and sexual predators are 
often very computer savvy and use advanced techniques to protect 
themselves from being detected by law enforcement. The FBI laboratory 
maintains a child pornography reference library that supports 
investigators in tracing the source of images and materials.
    Another important forensic tool is the FBI's combined DNA 
information system (CODIS) that serves as a national index containing 
DNA profiles from convicted offenders and unsolved crimes. Currently, 
there are 62 forensic laboratories in 30 states and the District of 
Columbia that are part of the CODIS network. We are hoping to add 
another 22 state and local forensic laboratories to the CODIS network 
this year.
    Our Information Resources Division provides critical automation 
services to support investigations of child pornography and other 
crimes against children. These services include the Rapid Start team, 
which is deployed to cities where a child abduction or similar crime 
has been committed and there are large volumes of information that must 
be computerized, indexed, and made available for analysis for the 
investigators. Crimes against children investigations often generate 
multitudes of leads from concerned citizens. Rapid Start provides 
investigators with critical and timely information management 
capabilities. This division also provides necessary technical services 
and support, such as radios, communications, and electronic 
surveillance, to joint task forces operations.
    Our Criminal Justice Information Services Division operates and 
maintains the National Crime Information Center (NCIC), which includes 
files for missing persons and unidentified persons. Through NCIC, the 
FBI also makes available criminal history data that is contained in the 
interstate identification index.
    Additionally, the FBI has established an interim capability for a 
national sexual predator and child molester registration system, as 
mandated by President Clinton in Executive Order 137789 and the Pam 
Lyncher Sexual Offender Tracking and Identification Act of 1996. An 
interim capability became operational in February 1997. A permanent 
sexual offender registry file, which will include the capability to 
electronically transmit photographs of registered sex offenders, is 
being developed within the NCIC 2000 system that is expected to become 
operational in July 1999.
    Finally, our overseas legal attaches support child exploitation 
cases. For example, our legal attache offices in London and Bonn 
assisted the ``Innocent Images'' investigation by facilitating the 
dissemination of evidence regarding subjects who resided in England and 
Germany that were receiving and transmitting child pornography through 
an American commercial on-line service. Austrian authorities have 
provided the FBI with evidentiary images obtained from the Internet as 
part of their efforts to identify individuals transmitting child 
pornography.
    FBI legal attaches also serve as a ready resource for 
investigations in foreign countries in cases involving international 
parental kidnapings.

                               CONCLUSION

    Protecting our children from becoming the victims of crime is 
everyone's responsibility. It is a tough responsibility for parents, 
neighbors, teachers, coaches, clergy, and public officials. It is a 
responsibility that requires constant vigilance and perseverance.
    Violent crimes committed against children are among the most 
emotional and demanding cases that investigators and prosecutors must 
face. Let me assure you that the FBI, as well as everyone in the 
Department of Justice, accepts its responsibilities in this area 
seriously and wholeheartedly. Our commitment is to work closely 
together on all such cases that are brought to us for investigation so 
that persons who prey upon our nation's children can be brought before 
the bar of justice to answer for these offenses.
    This concludes my prepared remarks. I would like to respond to any 
questions that you may have.

                      TRAVELER CASE DEMONSTRATION

    Mr. Freeh. Mr. Chairman, if you want, either now or later, 
we do have the ability to do a very short demonstration, with 
text only, of a traveler case. That is a case where someone 
contacts a child over the Internet, arranges for interstate 
transportation, and we are happy to do that now or----
    Senator Gregg. Why don't you do it now, Mr. Director? Then 
we can ask questions.
    Mr. Freeh. Great. I will ask Richard Potocek, who is our 
expert, also an agent assigned to the Innocent Images case, to 
just explain to us what he is doing. Richard, do you want to 
take over, please?
    Mr. Potocek. Thank you. While the computer is counting down 
and warming up, let me explain. This is an actual case that was 
worked last year by the Innocent Images squad in Calverton, MD. 
It involved an undercover agent who happened to be online, and 
he was contacted by the defendant in this case, who was using 
the screen name ``XderAlte.'' The undercover agent was using 
the screen name ``JulieJ1982,'' and in online parlance that 
would generally mean it is a female, Julie J., with a year of 
birth of 1982.
    This is a very brief portion of the online conversation 
that went back and forth between these two people, the 
defendant and the undercover agent. This is in a private chat 
room where no one else could see this, no one else who was 
online. It has been edited somewhat to take out some of the 
language that was used, and what I will do is just read through 
it line by line. Just by way of background, the defendant in 
this case was a CEO of a manufacturing company in Columbia, MD.
    That first line is an administrative message from the 
computer system telling anyone in this particular room which 
room they are in. This room was created by the defendant. And 
XderAlte says, ``Have you ever actually met anyone you met 
online?'' Julie, actually the undercover agent, responds, ``No; 
not exactly.''
    He states, ``What do you mean, not exactly?''
    Julie: ``I was going to meet somebody once but chickened 
out.''
    XderAlte: ``Would you chicken out if we had plans for 
lunch, do you think?'' ``I might.'' [Smiley face.]
    ``Are you there, Julie? Didn't mean to have that question 
upset you.''
    Julie: ``I don't think so. I'm in school during lunch.''
    ``The meeting sounds very nice, Julian.''
    XderAlte: ``I would very much enjoy that. I would give you 
a very gentle hug when we met!''
    Julie: ``That would be nice.''
    He asks her, ``Do you drive? How would I meet you? Is there 
a restaurant you like very much?''
    Julie: ``No; I don't drive, but I have friends who do.''
    XderAlte: ``I think if we meet, it should be someplace 
where you would feel safe.''
    Julie: ``But then what would I do with my friend? What 
about a mall? How long do you think we would need?''
    He responds, ``A mall sounds very good. I think the first 
time we meet it should be just long enough for us to get to 
know each other better * * * no strings attached, and just see 
how we are together.''
    And so on. That is the end of the text.
    What eventually happens is another--actually, the same 
undercover agent using a different screen name finds this 
individual online, suggests to him that he, the undercover 
agent, has the ability to procure minors for sexual purposes, 
and the defendant in this case expressed interest in that. 
There was a meeting arranged in Arlington, VA. The defendant 
traveled from Columbia, MD, to Arlington, VA, where he met an 
undercover agent, paid him $180 for the sexual services of a 
minor female, at which time he was arrested.
    Mr. Freeh. Thanks, Rich.
    Senator Gregg. Thank you.
    Mr. Director, I appreciate that demonstration. How easy is 
it to find individuals in these chat rooms who either, one, are 
willing to send pornographic photographs of minors--of 
children, or, two, are looking to make contact with a child?
    Mr. Freeh. The contact cases or the traveler cases, as we 
have mentioned them, are less frequent. In fact, we have only 
worked 19 of them since the inception of the Innocent Images.
    In terms of people willing to contact what appears to be a 
young child and the speed with which they will send 
pornographic images, it is almost frighteningly amazing. We did 
a demonstration in my conference room yesterday where Rich went 
online realtime as a 14-year-old girl, and I think several 
seconds after he was in the chat room, he was getting contacts 
and solicitations for images. Several minutes after he was in 
the chat room, there was a list of waiting messages. The chat 
rooms are basically full all the time, which means there are 
people in there constantly. And there is no reluctance to 
engage in those types of conversations and transmissions.
    I was told yesterday that in one instance the FBI 
undercover agent, who was working under a screen name in one of 
these venues, told the subjects or the people who were 
contacting her that she was an FBI agent, and that did not 
deter or interrupt the solicitations or transmissions at all.
    So I think there is a huge reservoir of people out there 
who are willing to engage in this, and the demonstration which 
I had yesterday--it is certainly available to you to have it; I 
think you have had part of it--shows that there is no shortage 
of interest or activity in that regard.
    Senator Gregg. Do you have any idea what percentage of that 
is within the country and what percentage is outside the 
country?
    Mr. Freeh. It is hard to estimate. I know looking at some 
of the messages yesterday, we identified some of them, at 
least, through the screen name as originating from foreign 
activities. Some of the profiles--and I am not the computer 
person here, but there is an inquiry mode to ask for a profile 
or background of the people in the chat room, and one of them 
showed yesterday an individual from West Germany. So that is 
very, very common.
    Senator Gregg. The main concern, then, is the projection of 
child pornography images over the Internet. That is basically 
what you are looking for?
    Mr. Freeh. Yes; that is the basic violation, and most of 
the cases deal exactly with that violation.
    Senator Gregg. There is a pretty clear law on that. Do you 
need additional legislation in that area?
    Mr. Freeh. I do not think we do. The law is fairly clear 
that one transmission is sufficient to predicate a criminal 
investigation and support a conviction. I think the law is 
fairly clear on that. It is more of a resource issue for us and 
the other agencies to be out there actively and proactively to 
deal with what is a huge problem.
    Senator Gregg. We are talking child pornography here, 
purely child pornography?
    Mr. Freeh. Yes.
    Senator Gregg. So there is no issue of first amendment 
rights.
    Mr. Freeh. That is correct. We are not talking about any 
community standards relating to obscene or indecent material. 
This is strictly child pornography.
    Senator Gregg. Now, maybe you could give us a sense of how 
you are setting up--to the extent you are willing to disclose 
it in a public forum--how you are setting up this process? Are 
you bringing agents in with computer backgrounds? What is the 
training? Is there a special training process for agents 
involved in this? How are you structuring it?
    Mr. Freeh. I would answer that in two parts. There is a 
comprehensive effort, as I think I told the committee last 
year, to recruit people who have backgrounds in computer 
sciences and technology. We have hired, since 1993, 400 special 
agents who have computer or high-tech backgrounds. We have 
hundreds of agents who are proficient now in the use of 
computers. When we graduate our new agents at Quantico every 2 
weeks now, we give them a gun, a badge, and a laptop computer, 
which is not only symptomatic but requisite in terms of the 
kinds of cases they are going to be working on.
    The agents who work the Innocent Images cases do not 
necessarily need a computer science background.
    They can be trained and are trained very proficiently to 
use the tools they need in this particular case. But in the 
investigative detection--in other words, to identify 
subscribers to online services, particularly if it is a foreign 
online service, or just to try to run down and identify 
somebody on the Internet that works outside the purview of an 
online subscriber service requires a lot more computer 
expertise, which is why we have our CART unit and why we are 
looking for people who have that type of background.
    Senator Gregg. Do you have a special class structure now at 
Quantico dealing with the forensics of computer science and the 
issue of pornography on computers?
    Mr. Freeh. Yes; we do. In addition to the new agents' 
training, we have training which we provide in the field to 
more experienced agents for greater proficiency. We have 
found--when we started hiring agents in 1994, after a 22-month 
hiatus--the course that was presented to the new agents was a 
little bit stale. The instructors told me that when they 
presented the computer keyboarding class that was part of the 
older curriculum, a couple of the agents came up to them and 
said: You know, we learned that stuff in high school. What else 
do you have?
    We have now substantially upgraded and made a much more 
complicated and comprehensive curriculum to get the kind of 
expertise that we need.
    Senator Gregg. Senator Hollings.
    Senator Hollings. Well, that is what interests me, is how 
we are going to really extend the techniques, the know-how to 
the State and local level. Here is child pornography, an 
offense that the Federal Government does not have the resources 
to take over singularly as a responsibility. And the only way 
it is really going to be controlled is at the State and local 
level. I am thinking back when the then FBI Director came and 
said now we have given up on bank robberies, we are turning 
that over to the States and the local authorities, because we 
did not have the resources. In a similar fashion, I commend you 
for what you have done. You have got your setup. You have got 
the various task forces. You have got the parts to the FBI 
school and everything else. But it seems to me that what we 
need to do is institute a special school for the local and 
State authorities to sort of bring them up to date here, 
because you can see from Mr. Allen's testimony that, just like 
you just started in 1994, I do not know whether any of the 
other States have started in even yet.
    What we need is just that, some comprehensive approach at 
this time because we are growing like Topsy. The Justice 
Department has grown in 10 years from $4 billion to $19 
billion. Your FBI budget just 10 years ago was $1 billion, and 
now you are asking this year for about $3 billion. And 
everywhere I go on the Senate floor, Members say that they are 
cutting taxes and cutting spending.
    With that kind of environment, we have got to be sensible 
about this, if we are really going to do it. I think a full-
court press of educating the State and local authorities is 
called for so that they can take it over and handle it in an 
authoritative manner, and then we will be able to control this 
Internet child pornography. But these particular cases that you 
have got here, you can be setting those up ad infinitum, and we 
just do not have enough money in the Federal Treasury to take 
care of it and monitor every personal computer.
    So with that in mind, what would you suggest? In this FBI 
budget request that you have before us this year--and I think 
we are going to be hearing that in this subcommittee here on 
Thursday--what amounts do you have set aside for any 
comprehensive educational approach? You have got the know-how. 
You have got those who really understand how to really get on 
top of it. But to get this information and get this expertise 
down and the techniques down to the local and State law 
enforcement agencies, what part of the $200 million are you 
going to use?
    Mr. Freeh. Senator, I would probably need to just review 
that quickly before I give you a specific answer. Generally, 
however, the protocols and the techniques, as well as the 
investigative guidelines which we have now used successfully 
even after court challenges, are available and are distributed 
whenever we can make them available to State and local 
agencies. For instance, the Florida----
    Senator Hollings. But they do not know how to ask the 
questions. You make it available, but in a general sense, I 
will bet my boots right now that if you go to these States and 
everything else, they will say, well, yes, we understand it is 
a problem; fine business on, you know, continue with respect to 
kidnaping and the serious and the violent crimes and the serial 
murders and crimes of that kind. But when it comes, just as 
this hearing indicates, to child pornography, local law 
enforcement will not even be asking you the question. They will 
say, ``Well, I do not want to bother the FBI with child 
pornography.'' And you have got to sort of bring them in and 
train them and educate them, and then get rid of it. Then you 
move on to some of the other more serious crimes.
    Mr. Freeh. Right. Well, I agree. It is much like you 
referred to the bank robbery crime.
    Senator Hollings. Yes.
    Mr. Freeh. What we have to do is ensure that the protocols 
and the techniques are available to be franchised to the State 
and locals where most of these offenses are being committed.
    We have in our Quantico training provisions--and this I am 
aware of--in the National Academy, classes which deal with 
investigative computer sciences, the use of computers to commit 
crimes. I will give you a specific answer in terms of how much 
of our budget is devoted to training or propagation of those 
particular techniques.
    [The information follows:]

            National Academy Investigative Computer Courses

    Among the numerous courses available to the over one 
thousand State, local, and international officers who annually 
attend the National Academy are three instructional classes 
that contain material directly applicable to the investigative 
use of computers and computer crimes: Management Applications 
of Computerized Law Enforcement Information Systems, 
Contemporary Issues in White Collar Crime, and the Practice of 
Crime Analysis. These courses present training on topics such 
as obtaining search warrants for computers and computer 
records; sources of information and electronic databases; 
computer crimes (e.g., child pornography); use of computers as 
investigative tools; computer forensics; and Internet access, 
capabilities, and law enforcement on-line services.
    The FBI's Training Division is also developing a three-
credit course, which will be accredited through the University 
of Virginia, dedicated solely to the investigative use of 
computers. In addition to the training that focuses directly on 
the investigative use of computers, the FBI provides other 
computer training within the National Academy program: 
Introduction to Micro-Computers, Micro-Computers for Managers 
and Management Planning and Budgeting. In fiscal year 1998, the 
FBI also plans to address the need for cyber-crime training.

    Senator Hollings. I am trying to get a figure, because you 
take the Center for Exploited and Missing Children that Mr. 
Allen has over here in Virginia, and he has got four offices 
around the country. I bet you he would like to have 46 more.
    Mr. Freeh. He sure would.
    Senator Hollings. And he could use them effectively.
    Mr. Freeh. Right.
    Senator Hollings. Then how do we get that done and get 
ahead of the curve before this thing just breaks out like the 
drug problem. The volume will overwhelm you unless the State 
and local people are astute to the techniques on how to handle 
it and how to really nip it in the bud. That is what I have in 
mind.
    Mr. Freeh. As I said, the Florida Department of Law 
Enforcement now uses all of our protocols to conduct on their 
own these types of investigations.
    Senator Hollings. That is Florida. How many other States?
    Mr. Freeh. I do not have----
    Senator Hollings. Ms. Hooper, how many other States? You 
know, I just want good answers, but adequate answers are fine. 
You have informed the Director and me now that it is Florida, 
but how many other States?
    Ms. Hooper. We provide demonstrations and training to every 
National Academy class at Quantico before they graduate. We 
travel throughout the country and provide training to State and 
local law enforcement officers, prosecutors, and judges. We 
present demonstrations. We have gone all over the country to do 
this. I do not have an exact----
    Senator Hollings. You have done it in every State already?
    Ms. Hooper. Not every State, but we have traveled 
throughout the country.
    [The information follows:]

                        Innocent Images Training

    Listed below is a sample of online child pornography 
investigative training that was provided by FBI Baltimore to 
other law enforcement personnel:
    FBI National Academy--Law Enforcement Supervisors.
    Albuquerque, New Mexico--Group of Women Judges.
    Milwaukee, Wisconsin--State and Local Law Enforcement.
    Alexandria, Virginia--Federal Prosecutors.
    Richmond, Virginia--State and Local Law Enforcement.
    Chesterfield, Virginia--Local Law Enforcement.
    Ocean City, Maryland--Federal Law Enforcement Agencies.
    On a daily basis, FBI Baltimore receives numerous telephone 
inquiries from other Federal, State, local and county law 
enforcement agencies concerning online child pornography 
investigations.

    Senator Hollings. Well, good enough. You can see what I am 
getting at.
    Mr. Freeh. Yes.
    Senator Hollings. Because the particular case you showed 
me, we will all be dead and gone, you can put that on in 10 
minutes and catch them. I mean, you are just going to have 
those kinds of people in society. Unless you can sort of 
develop that technique at the local level, we are gone. You 
just do not have enough money at the Federal level.
    Mr. Freeh. Senator, in partial response to your question, I 
have something which I can certainly provide as an exhibit to 
the committee. It is called the child abduction response plan. 
This is now being printed in the FBI, and what this is is a 
how-to-do handbook in child abduction cases. This will go out 
to thousands of police departments around the country. We are 
also preparing a floppy disk which will transmit this 
information.
    Our goal is, with respect to the protocols and the 
techniques used in Innocent Images, to do the same thing, to at 
least make available in a reference and operational form, how 
to do steps 1 to 10 to investigate and prosecute those kinds of 
cases. We will endeavor to continue that kind of law 
enforcement assistance.
    [The information follows:]

                     Child Abduction Response Plan

    The FBI's Child Abduction Response Plan is a law 
enforcement sensitive document not suitable for public 
dissemination. The FBI will provide the Subcommittee a copy of 
the plan under separate cover.

    Senator Hollings. Very good. I think the record would 
show--I do not know whether you were here at the time, but we 
had a favorable word for the FBI from Mr. Allen and the 
National Center for Missing and Exploited Children, and also 
the witness, Diane. This is the first favorable word I have 
heard about the FBI since January, and we are glad to hear it. 
We commend you both on the job being done.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you.
    I think Senator Hollings has raised a good point. It is one 
that I think the committee will want to pursue, which is how we 
systematize and institutionalize the communication of your 
expertise to the local and State law enforcement community? I 
think you would see a lot of receptivity on this committee to 
some sort of programmatic way of doing that. If you could put 
some of your thinkers to work on coming up with some proposals 
in that area, and maybe Mr. Allen could also give us some 
ideas, that would be very helpful to us. I think what Senator 
Hollings has pointed out is a very much needed effort.
    Mr. Freeh. We will do that, Mr. Chairman.
    Senator Gregg. Thank you.

                   BUDGET AND LEGISLATIVE INITIATIVES

    I was wondering, in the area of your budget and in the area 
of additional legislative activity, are there any initiatives 
in the budget area or in the legislative area that you feel you 
need in order to continue an aggressive pursuit of the Innocent 
Images initiatives?
    Mr. Freeh. In the budget area for both 1997 and now 
estimated for 1998, the crimes against children programs, which 
include sexual exploitation of children, parental kidnaping, 
child abduction, and serial killers, the Hardiman task force, 
we estimate for 1998 we will expend about $15 million, which is 
what we expended in 1997, 250 positions.
    We had asked for in 1998 a significant enhancement to 
pursue some of the propagation, which is what both Senators 
just referred to--that is, moving these task forces and 
resources around the country so they could be, one, more 
operational and, two, more interactive with the State and local 
officials. That particular request to OMB was not approved for 
1998, and we intend to pursue it next year because we think it 
is a very good investment of resources.
    Senator Gregg. But you do not feel you need any additional 
legislative language in this area?
    Mr. Freeh. I think with respect to the legal requirements 
for the possession of child pornography, which now require 
three separate episodes or three separate items, it seems that 
one would be legally sufficient, certainly on a constitutional 
basis. That may be one technical area for change. Other than 
that, I do not, at this time, have any sense that we would need 
major legislative assistance. I think we have the tools there. 
I just think we need more resources.

                 VICTIMS ASSISTANCE TO LAW ENFORCEMENT

    Senator Gregg. Mr. Allen made a point that the victim is 
sort of left out of the equation when it comes to a potential 
resource for identifying perpetrators, and he felt that there 
should be some more formalized effort to talk to victims, 
obviously try to help them out psychological, I presume, but, 
in addition, determine how they can be useful in expanding the 
universe of knowledge. Do you have a formal followup for the 
victims?
    Mr. Freeh. There is a departmental witness assistance 
program and a victim assistance program. There is a special 
unit in the Department for these programs. All the component 
agencies, including the FBI, have resources in the field which 
address these programs, and part of that is the safety and 
informational disbursements to the witness during the process, 
particularly the victim witnesses; also to make them aware of 
their various rights, the right to have an input at sentencing, 
the right for restitution under certain statutes.
    That is an ongoing program. It certainly would apply in all 
of the cases where you would have crimes against children.
    Senator Gregg. I think his point was that some of these 
victims could be great sources of information as to potential 
other criminal activity. I presume your investigators pursue 
that, but I did not--maybe you could give me some input on 
that.
    Mr. Freeh. We will get that for you.
    [The information follows:]

                              Victim Input

    The FBI frequently interviews child victims in missing and 
exploited children cases. The interviews are conducted to 
determine the facts of the child's victimization and develop 
specific information that could lead to the identification and 
prosecution of the offender. In addition to obtaining basic 
investigative information, it has proven beneficial to also 
obtain information about the offenders behavior. In cases 
involving the sexual victimization of a child, it is very 
important to obtain information about the offenders verbal, 
physical, and sexual behavior. With that information, FBI 
profilers can assist the investigators by providing information 
about characteristics of the offender that can be helpful in 
their search for the offender.

    Senator Gregg. Again, the parents' role in this is 
critical. I appreciate your reading one more time the things 
that parents can do. We are all parents.

                      INCREASING SAFETY AWARENESS

    Is there anything beyond that that we feel that we, as a 
government, should be doing? The FBI brings to the table great 
credibility in dealing with education. It is a unique 
situation, I think. The FBI and the National Science Foundation 
are two of the institutions which, when children are 
communicated with by these organizations, they are given great 
credibility. I was wondering if there was any thought given to 
some sort of educational, promotional effort. I can understand 
if there has not been because this is a new area. But I 
remember when I was going to school, there was a lot of 
information that came through the FBI that was promotional and 
explained how to deal with criminal activity. And kids respond 
to that.
    I was wondering if you had any sort of FBI kids' packet--
elementary or secondary school packet--that involved quizzes or 
some sort of creative, interactive effort that makes kids 
sensitive to this problem, makes parents sensitive to this 
problem, and has the FBI imprimatur of interest and obviously 
expertise on it. Has that been given any thought?
    Mr. Freeh. It is a very, very good point. I think it is 
something we probably have not taken advantage of, and it is 
certainly something we will look at.
    We have various programs, the Junior FBI Special Agent 
Program. We have agents and support employees around the 
country who, on a daily basis are active in schools and 
communities, particularly high-risk areas. And it seems like 
with a little bit of work and not a lot of resources, but with 
potentially a big impact, we could do something like that. And 
I certainly will take that up after the hearing.

                                FBI TOUR

    Senator Gregg. Just off the top of my head, I was thinking 
I do not know how many millions of people go through the FBI, 
but I know in my office it is the most popular tour. When kids 
come to Washington, that is where they want to go. Possibly, 
your tour guides could hand them the booklet put together by 
Mr. Allen's group, or the booklet we are putting together, or a 
booklet that you folks put together, to just give them some 
awareness of the dangers, or maybe even make it part of the 
tour such as a stop on the tour would be good.
    Mr. Freeh. Yes; that is a great idea, Senator. We will 
pursue that.
    Senator Gregg. That is just a thought. In any event, I 
congratulate your agency for a lot of things. I think your 
agency does do excellent work. I think this country is very 
indebted to what the FBI does. I am very supportive of your 
efforts. I am very supportive of what you have done, Mr. 
Director. And I think in this area you especially deserve to be 
congratulated, your agency and your people. It is an initiative 
that had to be undertaken, and you saw the problem and you 
pursued it. Congress and everybody else is a little bit behind 
you, but we are trying to catch up with you, and we want to 
support you, so thank you very much.
    Mr. Freeh. Thank you, Mr. Chairman, and thank you for 
having this hearing. Senator Hollings, thank you.

                          1998 BUDGET REQUEST

    Senator Hollings. Excuse me. What was the amount you 
requested for the crimes against children section in your 
budget this year that OMB did not approve?
    Mr. Freeh. For the sexual exploitation of children task 
forces, we asked for 94 positions, including 56 agents around 
the country. That was $9.9 million.
    Senator Hollings. $9.9 million?
    Mr. Freeh. Yes, sir.
    Senator Hollings. Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator Hollings, for 
participating so effectively in this and giving us some good 
ideas.
    Mr. Freeh. Thank you. Mr. Chairman, may I just make part of 
the record the correspondence between us and Senator Grassley 
so I can complete the answer that I gave before?
    Senator Gregg. Absolutely.
    Mr. Freeh. Thank you.
    [The information follows:]
                              United States Senate,
                                Committee on the Judiciary,
                                    Washington, DC, March 27, 1997.
The Honorable Louis Freeh,
Director, Federal Bureau of Investigation, Room 7176, J. Edgar Hoover 
        Building, Washington, DC.
    Dear Director Freeh: As Chairman of the Subcommittee on 
Administrative Oversight and the Courts, I am writing to verify certain 
information regarding the FBI's commitment of resources to 
investigating violations of federal child pornography laws. At a recent 
briefing for Judiciary Committee staff, FBI presenters indicated that 
the FBI has a database of approximately 4,000 names of persons who have 
sent computerized child pornography to undercover agents. Despite 
having sent sexually explicit images of children over a computer 
network, FBI presenters also indicated that these individuals were not 
being investigated. Please describe: the precise number of names in 
this database; how those names came to be included in the database; why 
the names included in the database are not being further investigated; 
and any ``threshold'' requirements to launch an investigation for 
sending computerized child pornography.
    Please deliver your response to these questions to 308 Senate Hart 
Office Building not later than the close of business on April 3, 1997. 
Thank you for your assistance in this matter. If you have any questions 
regarding this request, please call John McMickle of my Subcommittee 
staff at 224-6736.
            Sincerely,
                                       Charles E. Grassley,
 Chairman, Subcommittee on Administrative Oversight and the Courts.
                                 ______
                                 
                        U.S. Department of Justice,
                           Federal Bureau of Investigation,
                                     Washington, DC, April 4, 1997.
Honorable Charles E. Grassley,
Chairman, Subcommittee on Administrative Oversight and the Courts, 
        Committee on the Judiciary, United States Senate, Washington, 
        DC.
    Dear Mr. Chairman: Thank you for your letter of March 27, 1997. I 
greatly appreciate your interest in the FBI's investigative programs 
designed to identify and prosecute criminals who deal in child 
pornography or otherwise exploit or harm children in violation of 
federal law.
    As you know, I will be testifying in front of Chairman Gregg on 
Tuesday about the full range of the FBI's programs in this area: 
``Innocent Images'' is but one aspect of a larger investigative effort 
designed to capitalize on the FBI's substantial experience dealing with 
computer-aided crimes, kidnappings, pornography, and the other types of 
crimes committed by those intent on bringing harm to children. We are 
very grateful for the support Chairman Gregg, his Committee, and 
Congress have given the FBI.
    Regarding ``Innocent Images,'' please be assured that in all cases 
where the subject has been identified by an apparent true name, the FBI 
is conducting an investigation. At any given time, the number of 
persons under investigation is changing. Subjects are added if they 
originate and disseminate what appears to be child pornography to an 
undercover agent, or if they are the subject of a complaint by a 
citizen or Internet service provider. The federal grand jury process is 
utilized to discover the true identities of the originators of the 
child pornography. Thus, the true names in the file to which you refer 
are covered by Rule 6e of the Federal Rules of Criminal Procedure.
    We do apply investigative guidelines. They were designed in 
conjunction with the Department of Justice to ensure that in any 
instance where it appears there is physical harm to a child being 
committed, it is instantly and vigorously investigated; that the cases 
investigated have prosecutive merit; and, that an intent to distribute 
pornography is apparent from the transmission. No single factor is 
determinative; instead, all of the known facts are taken into account.
    I hope this is helpful. We would be pleased to provide you a full 
briefing on this case as well as on our entire investigative program 
aimed at protecting children by enforcing the applicable federal laws.
            Sincerely yours,
                                            Louis J. Freeh,
                                                          Director.
                                 ______
                                 
                              United States Senate,
                                Committee on the Judiciary,
                                     Washington, DC, April 7, 1997.
The Honorable Louis Freeh,
Director, Federal Bureau of Investigation,
Washington, DC.
    Dear Director Freeh: Having received your letter of April 4, 1997, 
I am writing to express my disappointment with the non-responsive 
nature of your reply to my questions. As I stated in my earlier letter, 
I had asked whether, as FBI presenters told Judiciary Committee staff 
at a recent briefing, the FBI currently has a database of approximately 
4,000 names of known child pornographers who sent child pornography to 
undercover FBI agents over computer networks. This is a cause for 
serious concern since child pornography is such a vicious and 
horrendous crime. Unfortunately, you did not forthrightly address this 
issue in your letter.
    I believe this information will be very helpful to Congress in 
determining whether law enforcement resources dedicated to fighting 
child pornography should be re-directed. Obviously, if the FBI and 
Justice Department have not properly allocated enough resources to 
prosecute all known child pornographers, Congress should consider 
earmarking funds for the specific purpose of investigating and 
prosecuting child pornographers. It is my understanding that there are 
at most three agents assigned specifically to work on child pornography 
cases. By contrast, under last year's funding resolution, the FBI's 
Office of Congressional and Public Affairs has an authorized complement 
of 81 employees with a budget of nearly $6 million. This allocation of 
resources seems to indicate that the FBI considers lobbying Congress 
and issuing press releases to be many times more important than 
fighting child pornography. I believe that the American people would be 
well-served if Congress were to consider re-allocating a portion of 
these agents to fight child pornography. The Weekly Standard this week 
has struck a chord by suggesting that the real problem is ``a lack of 
resolve at the highest levels of law enforcement.''
    While I await an appropriate response to my inquiry, I will be 
sending a letter to Chairman Gregg communicating my concerns and asking 
him to pursue this matter during his Appropriations Subcommittee 
hearing on April 8, 1997.
            Sincerely,
                                       Charles A. Grassley,
 Chairman, Subcommittee on Administrative Oversight and the Courts.
                                 ______
                                 
                        U.S. Department of Justice,
                           Federal Bureau of Investigation,
                                    Washington, DC, April 17, 1997.
Honorable Charles E. Grassley,
Chairman, Subcommittee on Administrative Oversight and the Courts, 
        Committee on the Judiciary, United States Senate, Washington, 
        DC.
    Dear Mr. Chairman: Thank you for your letter of April 7th. I 
greatly appreciate your interest in insuring that the FBI has 
sufficient resources to identify and investigate criminals who 
distribute child pornography or otherwise exploit or harm children in 
violation of federal law.
    As you know, Senator Gregg held a hearing in support of the FBI's 
comprehensive program designed to capitalize on the FBI's substantial 
experience in the types of crime involving harm or exploitation of 
children. We greatly appreciate the support Congress is giving the FBI 
in that regard.
    I can assure you that there is an absolute resolve at every level 
in the FBI and the Department of Justice to investigate and prosecute 
criminals who transmit child pornography or otherwise harm children.
    The FBI has a much greater commitment of resources dedicated to 
this problem than you have been told. In addition to the Agents and 
professional support assigned to the Baltimore FBI office, the central 
point for the Innocent Images investigation, there are Agents in nearly 
every FBI field office around the country dedicated to, and in direct 
support of, this effort.
    Because this program is so important to the safety of our children, 
these numbers are supplemented whenever investigative needs dictate. We 
will not leave unaddressed a situation that we have identified as 
potentially harmful.
    In answer to your specific questions:
  --There are 3,978 names of individuals in the Innocent Images case 
        management file, all obtained in response to grand jury 
        subpoenas. Please understand, this number is cumulative and 
        fluctuates constantly. It does not represent a holding place 
        for unaddressed work.
  --Individuals are added to the case management file if they have 
        disseminated what appears to be child pornography to an 
        undercover Agent, or if they have been the subject of a 
        complaint by a citizen or Internet service provider.
  --There is an ongoing case-by-case review in which immediate action 
        is taken where the circumstances dictate. Included in these 
        circumstances are details of transmission itself, and/or facts 
        which raise a concern for the safety of a child.
  --Names included in the case management file are being investigated 
        consistent with the law and established prosecutorial 
        guidelines.
  --There are specific investigative guidelines developed with the 
        Department of Justice. They are not a ``requirement'' per se. 
        As was explained at the hearing, any number of factors are 
        considered. For example, investigation is immediately conducted 
        when a child appears to be in any danger. Other factors include 
        the egregious nature of the material, whether the images are 
        new or ones that have been circulated for years out of 
        published sources, whether the true identity of the sender is 
        known, past experience or record of the sender, analysis of 
        accompanying written material, the apparent age of the persons 
        in the images, the age of the sender, etc. One transmission can 
        and has resulted in an immediate investigation.
    We believe there is a valid reason for guidelines. Our goal is to 
have a prosecutable case. To do that, we must establish a true 
identity, knowledge, intent and the other requirements for a successful 
prosecution. In addition, we always need sufficient information to 
establish probable cause to obtain search warrants. Frequently, a 
single transmission is insufficient for these purposes, particularly if 
the people in the images are not clearly and unequivocally juveniles as 
defined in the statute. Three instances are usually sufficient to meet 
these legal requirements. We present for prosecution every case that we 
are able to make prosecutable.
    I hope this information answers your questions. Please be advised 
that in an effort to be responsive we included information the public 
disclosure of which will harm our investigation. I respectfully ask 
that you treat it accordingly.
    Again, thank you for your interest. I would be pleased to arrange a 
full briefing for you if you believe that would be helpful.
            Sincerely yours,
                                            Louis J. Freeh,
                                                          Director.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Gregg. I ask that the record remain open for 
Senators to submit additional questions, and I appreciate 
everybody being here.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
    Question. The Senate Judiciary Committee notified us that they were 
briefed that the FBI had a database with some four thousand names of 
people who have actually sent computerized child pornography to 
undercover FBI agents.
    How many names are in this database?
    Answer. There are 3,978 names of individuals in the Innocent Images 
case management file, all obtained in response to Federal Grand Jury 
subpoenas. This number is cumulative and fluctuates constantly. It does 
not represent a holding place for unaddressed work. Names included in 
the case management file are being investigated consistent with the law 
and established prosecutorial guidelines.
    Question. What criteria are used for adding a name to the database?
    Answer. Individuals are added to the case management file if they 
have disseminated what appears to be child pornography to an undercover 
agent, or if they have been the subject of a complaint by a citizen or 
Internet Service Provider.
    Question. What are the ``investigative guidelines'' governing 
investigations where computerized-child pornography is sent?
    Answer. There are specific investigative guidelines developed with 
the Department of Justice. They are not a ``requirement'' per se. A 
number of factors are considered in these guidelines. For example, an 
investigation is immediately conducted when a child appears to be in 
any danger. Other factors include the egregious nature of the material, 
whether the images are new or ones that have been circulated for years 
out of published sources, past experience or criminal record of the 
sender, analysis of accompanying written material, the apparent age of 
the persons in the images, the age of the sender, etc. One transmission 
can result in an immediate investigation. There is an ongoing case-by-
case review in which immediate action is taken where the circumstances 
dictate.
    Question. What plans, if any, does the FBI have for transferring 
resources to deal specifically with investigating child pornography?
    Answer. It is the FBI's intention to create a Bureau wide Crimes 
Against Children (CAC) initiative, both at FBIHQ and in each field 
office, which will consolidate FBI investigative operations and 
administrative matters involving child-victimization. It is the FBI's 
intention to pursue funding through the budget process to establish 56 
FBI-sponsored CAC interagency task forces, one in each field office. 
Special Agents in each field office would be designated and specially 
trained to conduct CAC investigations.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings
                   crimes against children initiative
    Question. Your prepared statement describes the FBI's Crimes 
Against Children initiative, of which child pornography on the Internet 
is a major focus of crimes involving the sexual exploitation of 
children. In looking over the FBI's 1998 budget request, I did not find 
the Crimes Against Children initiative listed among the FBI's seven 
budget initiatives for 1998.
    Within the FBI's budget, where does funding for the ``Innocent 
Images'' and Crimes Against Children initiative currently fall?
    Answer. Funding for Innocent Images and the Crimes Against Children 
initiative is provided in the Violent Crimes and Major Offenders 
Program, which is part of the Violent Crimes Decision Unit.
    Question. What is the funding for fiscal year 1998?
    Answer. For fiscal year 1998, the requested funding for the Violent 
Crimes and Major Offenders Program is 3,939 positions (2,248 agents), 
3,851 FTE and $376,994,000. Of this amount, the FBI estimates it will 
utilize 250 positions (157 agents) and $18,892,000 combating crimes 
against children.

               INDUSTRY COOPERATION WITH LAW ENFORCEMENT

    Question. In tracking down pedophiles and sexual predators using 
the Internet and commercial on-line chat rooms, I am told that the FBI 
must go back to service providers in order to obtain the names and 
address of subscribers who are involved in transmitting pornographic 
materials or soliciting minors. There are thousands of these service 
providers, ranging in size from industry giants, such as America On-
Line and Prodigy, to ``Mom and Pop'' outfits in smaller cities and 
towns.
    Are you satisfied with the cooperation the FBI is getting from 
service providers?
    Answer. The FBI is developing working relationships with service 
providers that will acquaint them with FBI investigative jurisdiction 
and needs. Some providers have referred child pornography cases to the 
FBI as a result of these efforts. The FBI is hopeful that cooperation 
will continue to build as a result of these efforts.
    Question. Are they fully complying with your search warrants or 
court orders?
    Answer. The online service providers have, to a large extent, 
demonstrated their ``good faith'' in complying with subpoenas and court 
orders. Through our experience, the FBI has found that some service 
providers do not maintain subscriber information to the same detail or 
availability that other businesses do, i.e., banks and telephone 
companies. In some instances, service providers have been unsure of 
what information can be provided due to lack of legal precedent, fear 
of civil liability, and applicability of Federal statutes.
    Question. Is there a need for legislation to ensure the full 
cooperation of service providers to lawful requests for subscribers 
information?
    Answer. For both the FBI and industry, this is an emerging area 
where case precedents are still being developed. At the present time, 
the FBI does not foresee a need for legislation and is continuing to 
work with industry to develop cooperative relationships under existing 
law.

             FBI ROLE IN CHILD PORNOGRAPHY ON THE INTERNET

    Question. What is the FBI's role in child pornography on the 
Internet?
    Answer. The FBI focuses on those individuals who are producers of 
child pornography; those who actually upload illegal images onto the 
online services; those who are major distributors of child pornography; 
and those who indicate a willingness to travel for the purpose of 
engaging in sexual activity with a juvenile. A major distributor is 
defined as one who appears to have transmitted a large volume of child 
pornography via computer on numerous occasions to numerous other 
subscribers.
    Question. How does it differ from what other Federal agencies do?
    Answer. The U.S. Postal Service investigates violations of Title 
18, USC, Sections 1461 and 1463, which deal with the transmission of 
obscene matter through the mail.
    Title 19, USC, Section 1305, which is included in the Tariff Act of 
1930, prohibits the importation of obscene matter into the United 
States. Violations of Section 1305 are within the jurisdiction of the 
U.S. Customs Service.
    Question. How does the FBI interact with the National Center for 
Missing and Exploited Children (NCMEC) and local law enforcement?
    Answer. The FBI enjoys an outstanding working relationship with 
NCMEC. The NCMEC continues to forward all complaints received from 
their child abuse toll-free hotline to the FBI. The Child Abduction and 
Serial Killer Unit (CASKU) maintains a close working relationship with 
the NCMEC, and assists in coordinating a field office's need to utilize 
NCMEC resources such as age enhancement of photographs, and the 
distribution of missing child posters.
    The FBI's relationship with local law enforcement agencies 
continues to be extremely effective. Child abductions are routinely 
handled expeditiously and prudently across the country as the FBI works 
with local law enforcement agencies to solve these random crimes. There 
are currently five formalized Crimes Against Children interagency task 
forces operating in the United States. FBI Baltimore has formally 
trained different law enforcement agencies across the country on the 
protocols and guidelines utilized in the Innocent Images investigation.

                         CONCLUSION OF HEARING

    Senator Gregg. The hearing is recessed.
    [Whereupon, at 11:29 a.m., Tuesday, April 8, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
